<html>
<title> - THE HISTORIC 2017 HURRICANE SEASON: IMPACTS ON THE U.S. VIRGIN ISLANDS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
 THE HISTORIC 2017 HURRICANE SEASON: IMPACTS ON THE U.S. VIRGIN ISLANDS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                 THE INTERIOR, ENERGY, AND ENVIRONMENT

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 12, 2018

                               __________

                           Serial No. 115-72

                               __________

Printed for the use of the Committee on Oversight and Government Reform





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                       
                               _________ 
                                  
                    U.S. GOVERNMENT PUBLISHING OFFICE
30-941 PDF                  WASHINGTON : 2018                            
 
 
 
                       
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Blake Farenthold, Texas              Jim Cooper, Tennessee
Virginia Foxx, North Carolina        Gerald E. Connolly, Virginia
Thomas Massie, Kentucky              Robin L. Kelly, Illinois
Mark Meadows, North Carolina         Brenda L. Lawrence, Michigan
Ron DeSantis, Florida                Bonnie Watson Coleman, New Jersey
Dennis A. Ross, Florida              Raja Krishnamoorthi, Illinois
Mark Walker, North Carolina          Jamie Raskin, Maryland
Rod Blum, Iowa                       Jimmy Gomez, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matt Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     Stacey E. Plaskett, Virgin Islands
Gary J. Palmer, Alabama              John P. Sarbanes, Maryland
James Comer, Kentucky
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                  Robert Borden,Deputy Staff Director
                    William McKenna General Counsel
                     Jessica Conrad, Senior Counsel
                         Kiley Bidelman, Clerk
                 David Rapallo, Minority Staff Director
                                 ------                                

          Subcommittee on the Interior, Energy and Environment


                    Blake Farenthold, Texas Chairman
Paul A. Gosar, Arizona, Vice Chair   Stacey E. Plaskett, Virgin Islands
Dennis Ross, Florida                 Jamie Raskin, Maryland
Gary J. Palmer, Alabama              Jimmy Gomez, California
James Comer, Kentucky                (Vacancy)
Greg Gianforte, Montana


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 12, 2018...................................     1

                               WITNESSES
                                Panel I:

Senator Myron D. Jackson, Senate President, U.S. Virgin Islands 
  Legislature
    Oral Statement...............................................     6
    Written Statement............................................     8
Senator Tregenza A. Roach, U.S. Virgin Islands Legislature
    Oral Statement...............................................    16
    Written Statement............................................    18

                               Panel II:

Mr. William ``Bill'' Vogel, Federal Coordinating Officer, Federal 
  Emergency Management Agency
    Oral Statement...............................................    29
    Written Statement............................................    32
Mr. Murad ``Mojo'' Raheem, ASPR Regional Emergency Coordinator, 
  Region 2 Department of Health and Human Services
    Oral Statement...............................................    40
    Written Statement............................................    42
COL Scott Heintzelman, Defense Coordinating Officer for FEMA 
  Region II, Department of Defense
    Oral Statement...............................................    51
    Written Statement............................................    52
COL Robert J. Clark, Commander, USACE Field Recovery Office, U.S. 
  Army Corps of Engineers
    Oral Statement...............................................    56
    Written Statement............................................    58
Mr. Randy Lavasseur, Caribbean Group Superintendent, National 
  Park Service
    Oral Statement...............................................    61
    Written Statement............................................    63
Mr. Henry ``Hank'' Dynka, Manager, In-Plant Support, Northeast 
  Area Operations, U.S. Postal Service
    Oral Statement...............................................    66
    Written Statement............................................    68

                                APPENDIX

Statement for the Record of Ruby Simmonds Esannason, submitted by 
  Ranking Member Plaskett........................................    90
Statement for the Record of Senator Janelle K. Sarauw, submitted 
  by Ranking Member Plaskett.....................................    93
Statement for the Record of Meaghan Enright, submitted by Ranking 
  Member Plaskett................................................    95


 THE HISTORIC 2017 HURRICANE SEASON: IMPACTS ON THE U.S. VIRGIN ISLANDS

                              ----------                              


                         Monday, March 12, 2018

                  House of Representatives,
          Subcommittee on the Interior, Energy and 
                                        Environment
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 9:40 a.m., at 
the Legislature of the Virgin Islands Capitol Building, 
Charlotte Amalie, St. Thomas, Virgin Islands, Hon. Blake 
Farenthold [chairman of the subcommittee] presiding.
    Present: Representatives Farenthold and Plaskett.
    Mr. Farenthold. Good morning. The Subcommittee on the 
Interior and Environment will come to order. Without objection, 
the Chair is authorized to declare a recess at any time.
    Before we get started, I did want to take a moment to speak 
directly to our audience. I want to thank the witnesses and 
also those members of the community who have chosen to be here.
    I do want to point out this is a formal hearing of the 
subcommittee and not a townhall meeting. We are here to hear 
from the witnesses. Though we value what members of the public 
have to say, this is a formal hearing. If there is time 
afterwards, Ms. Plaskett and I will come to the back and visit 
and listen to anybody's concerns. Also we need to get back to 
Washington because we have votes tomorrow in the House.
    So we would appreciate it if the members of the audience 
would basically just listen. If you've got something to say, 
obviously you can write to us or we'll try to talk to you 
after.
    With that, I'll offer my opening statement before we get 
started.
    Today the subcommittee would examine the effects of the 
historic 2017 Hurricane Season on the U.S. Virgin Islands. 
However, before we get started, I do want to thank the ranking 
member of this subcommittee, Ms. Plaskett, for being such a 
wonderful host in showing us her beautiful home islands.
    It's been almost 30 years since I've been here. There have 
been substantial changes, not just based on time but obviously 
based on the devastation of the hurricanes. These islands are 
extremely beautiful but the effects of the hurricanes are 
clear. It's painful to see the destruction in this area.
    I'm especially sympathetic to what the residents of the 
USVI are enduring because my home city of Corpus Christy, Texas 
was slammed by Hurricane Harvey as well this year. We faced 
wind gust up to 132 miles an hour in nearby Port Aransas, an 
island community I grew up in having had a house there.
    I'll tell you the devastation that we saw from Harvey it 
reached as far as the Houston area based on rain. It was just 
amazing. According to the National Weather Service, Houston saw 
an all-time record daily rainfall accumulations on August 26th 
and 27th.
    The struggle of residents in Texas and the Virgin Islands 
have faced in the aftermath of the storms have been intense. 
Economic losses based on Harvey are as high as a 100 billion. 
We are still awaiting numbers from here as we continue to do 
recovery.
    I bring up Texas to note that I do have experience with 
these devastating hurricanes and made my trip here particularly 
interesting. It's personally important for me to understand the 
challenges that you all are facing.
    Earlier this week I was in Port Aransas talking to the 
Mayor about their recovery efforts. We see some of the same 
challenges here with housing and debris removal. There is an 
extra burden here based on logistics. It takes longer. It's 
more expensive to get stuff out of here and the same is true to 
get stuff here and get the debris out of here. So it's 
interesting to see.
    We are looking always to find ways to improve and reform 
the Federal response to this. The Stafford Act, which is the 
law governing Federal disaster assistance in the U.S., is 
intended to be flexible and leave a great deal of decision 
making to the localities in the State, territory, or the local 
governments.
    In our Federal system of government this is important 
because it preserves the sovereignty of the territories, 
States, and local governments and respects their expertise. 
However, these locations and localities that often need Federal 
assistance are faced with overwhelming disasters as happened 
here and back home in Texas.
    This Federal assistance is provided by an alphabet soup of 
agencies ranging from FEMA, DOD to HHS, SBA. I think it's 
important that the Congress play a role in this as well and 
particularly this committee. We need to make sure these 
interactions, especially those between local governments and 
Federal agencies are working as well as possible.
    Now by the very definition of the word, a disaster, is 
disruptive. It causes chaos and upends the order of life that 
we're used to, and as such, there is always going to be 
difficulties coordinating the relief and recovery efforts, and 
geography just adds to some of those challenges. There are 
always ways we can improve this and that's certainly the case 
here in the U.S. Virgin Islands. I hope today we can have a 
productive discussion about advancing these improvements.
    I want to thank the representatives of the Federal agencies 
who have taken time out of their busy schedules to appear 
today. I want to thank the participants of our panel 
representing the local perspective because your voice is vital 
to understanding what we need to do to fix the disaster relief 
problem.
    I want to point out that even though it's just Ms. Plaskett 
and me here, we had originally scheduled this meeting in 
December but the House schedule changed. The day we were 
planning on being here, it got changed and as a result some of 
the other members that were planning to attend were not able to 
reschedule to come at this date. But Ms. Plaskett and I felt 
like it was important that we get this hearing done as soon as 
possible.
    This transcript will be made available to the entire 
subcommittee and committee as a whole. I'm looking forward to 
hearing what you have to say.
    And now I'll recognize Ms. Plaskett for her observations.
    Ms. Plaskett. I first want to thank Chairman Farenthold for 
calling this hearing to examine the impact of the Federal 
Government's response to Hurricanes Irma and Maria in the U.S. 
Virgin Islands. And I also would like to thank the chairman of 
the committee, Trey Gowdy, who has made sure that this hearing 
was able to take place.
    I especially would like to thank the senate president, 
Myron Jackson, as well as all the members of the legislature 
for hosting us and having this hearing here in the Virgin 
Islands legislative building.
    I think people need to be aware that this is probably the 
only time that the U.S. House of Representatives have had a 
formal hearing here in the United States Virgin Islands. While 
there have been townhalls, there have been meetings, this is in 
fact a record that will go into the Congressional Record and 
will demonstrate the people of the Virgin Islands' vigilance 
and resilience and their concerns as U.S. citizens for the 
effect and the impact of the Federal response on these islands.
    Every sector of the U.S. Virgin Islands was devastated by 
two Category 5 hurricanes which made landfall last September. 
Eighty-five percent of the homes were destroyed or damaged. 
Nine of the territory's K through 12 public schools remained 
shuttered due to damages sustained by the hurricanes.
    The University of the Virgin Islands suffered damage to its 
campuses on both St. Thomas and St. Croix. Both the Roy Lester 
Schneider Regional Medical Center in St. Thomas and the 
Governor Juan Francisco Luis Hospital on St. Croix sustained 
damage and could not perform critical care services, forcing 
the evacuation of critical care and chronic patients to Puerto 
Rico and eventually to the U.S. mainland.
    Our airports and seaports remained closed for days. 
Roadways and thoroughfares already in disrepair sustained 
further damage. And critical communications, including radio 
broadcast antennas and cell towers were crippled. Emergency 911 
communications were inoperable.
    Hurricanes Irma and Maria caused dozens of injuries and 
some deaths. The damage from these storms and the psychological 
and long-term economic impact is as unparalleled as the 
occurrence of two Category 5 hurricanes making landfall in a 
specific area in a two-week period could do.
    While the Federal Government's response is welcomed and 
appreciated, there are critical improvements that must be made 
in advance of the next Atlantic hurricane season, which begins 
June 1, and the ones to follow if we want to mitigate the loss 
of life, injury and damage to property. To be clear, the people 
of the Virgin Islands of the United States are grateful for the 
efforts of the Federal Government in assisting our recovery. We 
want to make that--I'd like to make that point at the 
beginning.
    Through our combined recovery efforts, disaster recovery 
centers received over 63,000 visits from hurricane survivors. 
Distribution centers provided approximately 100,000 meals and 
some 72,000 liters of drinking water. As of January both FEMA 
and SBA have approved more than $400 million in grants and low 
interest disaster housing loans, and $68.7 million in aid to 
various individual and household programs. Congress has passed 
three disaster supplemental appropriations; still the recovery 
is far from over.
    The catastrophic destruction caused by Hurricanes Irma and 
Maria continue to demand massive amounts of aid to address the 
overwhelming needs of the victims who now face the daunting 
task of rebuilding their lives. We will hear about the things 
that went well, but we must also hear about the things that did 
not go as well and ways that we can improve ourselves.
    That is the sign of a true democracy and a mature country 
that is able to hear where our shortfalls were so that we can 
do better the next time. We must continually try to improve 
ourselves. That's how we remain the greatest country in the 
world.
    So many of the issues that we have found are the U.S. 
Citizenship and Immigration Services field offices in St. Croix 
remain closed. There are currently no offices to process 
permanent residency and naturalization applications for persons 
without the means to travel to St. Thomas. And if they could 
travel to St. Thomas, these persons would need to wait an 
exorbitant amount of time for personnel to process the backlog 
of applications. The hard working permanent residents and legal 
immigrants who continue to contribute to our economy cannot 
suffer any longer.
    Additionally, the United States Postal Service has released 
hundreds of workers hired to eliminate mail backlogs despite 
the continuing delays. Packages have been delayed for months at 
a time.
    I have specific cases that I have given to the Assistant 
Postmaster General regarding that. Mail has simply gone poof, 
disappeared in distribution centers in Puerto Rico. That cannot 
be. The United States Postal Service is a primary means of 
commerce in the territory and that needs to be restored.
    The Army Corps of Engineers and the Federal Emergency 
Management Agency and working with the Government of the Virgin 
Islands has not completely provided adequate plans for plant 
and other hurricane debris removal. Mounds of hurricane debris, 
including appliances and scrap metal are disposed of near 
public schools and pose real health and safety risks. Virgin 
Islanders are still struggling to achieve normalcy.
    We are now 80 days away from the 2018 Hurricane Season, 16 
months away from the 2019 Hurricane Season and 28 months away 
from the following. The only thing we are ready for is freedom 
from the longstanding problems caused by the last hurricane.
    Without an adequate Federal investment in infrastructure 
and other critical funding to harden systems like our energy 
grid to make them more resilient to withstand future storms, we 
will be in the same or worse predicament than we were following 
the last major storm, particularly with so many homes still 
exposed today.
    In the aftermath of the storms, I and Ranking Member Elijah 
Cummings wrote to Chairman Trey Gowdy in October to request a 
hearing on the Federal recovery efforts in the Virgin Islands. 
We received several briefings from FEMA, the Department of 
Health and Human Services and the Department of Defense.
    Today is our first public hearing on the hurricane response 
and I'm pleased that we are able to receive testimony from 
representatives of the Virgin Islands community and Federal 
officials directly involved in the relief and recovery efforts.
    To better prepare ourselves for future hurricanes, I've 
worked with Congress to introduce H.R. 4782, the Puerto Rico 
and Virgin Islands Equitable Rebuild. This is the Marshall Plan 
we are requesting for the Virgin Islands.
    Additionally, Puerto Rico and the Virgin Islands allows the 
islands to use disaster funds to lay the groundwork for a more 
resilient and clean energy grid. I believe that is what 
Congress has been requesting.
    Both Majority Leader Kevin McCarthy, as well as Democratic 
Whip Steny Hoyer, wrote an opinion piece together after coming 
to the Virgin Islands who recognized that the Stafford Act must 
be amended to allow for resiliency and the hardening of our 
systems so that we can withstand the next hurricane season.
    Throughout this hearing you will find that the Virgin 
Islands is resilient. Because of this resilience, she has come 
afar way since the previous hurricane season. However, normalcy 
remains out of the reach for far too many Virgin Islands 
residents, and to stop at the progress made is to impose on 
American citizens a substandard quality of life.
    Thank you again, Chairman, for having this hearing. I look 
forward to hearing from our witnesses and asking pertinent 
questions.
    Mr. Farenthold. Thank you very much.
    I'm now pleased to introduce our first panel of witnesses: 
Senator Myron D. Jackson, the senate president of the United 
States Virgin Islands, and senator--and I hope I get this 
pronounced right--Tregenza A. Roach, the senator from the 
Virgin Islands Legislature as well.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. Will you please stand and raise your right 
hand?
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth and nothing 
but the truth so help you God?
    Let the record reflect both witnesses answered in the 
affirmative. You all may be seated.
    We do have two panels today. In order to allow time for 
discussion, we'd appreciate it if you would limit your 
testimony to 5 minutes. Your entire written statement will be 
made a part of the record.
    As you see there is a clock on the middle desk here. You 
may not be able to read the time but it does have a green, 
yellow and red light. That's like the traffic signal. Green 
means go, yellow means hurry up and red means stop.
    So we will start, I guess, with Senate President Jackson. 
You are recognized for 5 minutes.

                            PANEL I

                       WITNESS STATEMENTS

                 STATEMENT OF MYRON D. JACKSON

    Mr. Jackson. Thank you very much, Mr. Chairman,
    Good morning Honorable Blake Farenthold, Chairman, and 
Honorable Stacey Plaskett, Delegate to the Virgin Islands and 
Ranking Member.
    Mr. Chairman, at this time I would ask your indulgence and 
ask if the vice president of the institution to join me as we 
have been partners through the process of our recovery?
    Mr. Farenthold. Without objection so ordered.
    Mr. Jackson. Thank you. That would be Senator Nereida 
Rivera-O'Reilly.
    It is a pleasure to host the Subcommittee on Interior, 
Energy and Environment of the Committee on Oversight and 
Government Reform today in the Earle B. Ottley Legislative 
Chambers on St. Thomas. On behalf of the 32nd Legislature of 
the Virgin Islands, we are grateful for the opportunity to 
testify before you today at this field hearing to assess the 
impacts of the 2017 Hurricane Season on the Virgin Islands of 
the United States.
    The double blow of the two Category 5 storms, Hurricanes 
Irma and Maria to our territory had a crippling effect on our 
territory from which we are still in turmoil in areas such as 
healthcare, schools, emergency services, housing, our 
electrical system, agriculture, and environment and our 
cultural heritage and tourism industries.
    Without the assistance of the U.S. Government, Federal 
funds infused into our economy, and the hundreds of men and 
women sent to assist the Virgin Islands, we could not be where 
we are on the journey to recovery.
    Thank you to the Federal Emergency Management Agency and 
all of the linemen, engineers and national emergency workers 
who have expended countless hours to work with our local 
officials, first responders, local and national military 
forces, volunteer groups and others in our restoration from the 
devastating natural disaster we experienced last September.
    As it relates to our Federal disaster assistance, community 
disaster loan, the Virgin Islands is grateful for the financial 
assistance approved by Congress in October of 2017 in the form 
of $500 million in a low interest community disaster loan from 
FEMA which will cover revenue loss and support the territory's 
hospitals, central government operations, and the Water and 
Power Authority over the course of the next three fiscal years.
    We are also grateful that Congress approved $89 billion to 
areas impacted by natural disasters to include the Virgin 
Islands and Puerto Rico. It is calculated that the Virgin 
Islands may ultimately receive in excess of $7.5 billion 
requested for our recovery.
    We ask you also to be our voice as advocates in forgiveness 
of these loans so that the territory can fully recover and 
continue to advance economically as efforts were being made 
prior to the arrival of these storms.
    The most glaring casualty of course for us is the medical 
evacuees. The 2017 hurricane season has been very impactful to 
our health system. The territory as a whole was adversely 
impacted as we airlifted patients out of the territory. Over 
500 patients were transported out of the Virgin Islands and 
close to 140 remain on the mainland.
    As of last month, according to the Commissioner of Health, 
43 evacuees have died. Under the current response plan, FEMA, 
the Department of Health, Human Services, the Department of 
Defense all have responsibilities for medical evacuees. 
Hurricanes Irma and Maria exposed the chaotic management of our 
most vulnerable citizens.
    This is a time that we need to consolidate the 
responsibility for our medical evacuees under one agency. That 
agency must keep a chain of command of each patient, including 
the names of the accompanying family member and an additional 
emergency contact.
    We cannot allow evacuees to be further stressed by this 
uncertainty. We must and can do better for our citizens as they 
are forced to leave their homes to seek medical services during 
disasters.
    Another area of concern is housing. Our primary concern for 
the territory in the wake of the hurricanes was a response to 
our displaced residents.
    A prime example of this is the Department of Housing and 
Urban Development on February 2, 2018 announced it would afford 
the territory $243 million to help the Virgin Islands recover 
from the effects of the storm. The devastating picture of the 
Tutu Hi-Rise and Lagoon Street communities could paint no 
clearer image of the destruction to hundreds of homes that were 
ripped open.
    No immediate emergency housing was provided for residents 
living in the devastated areas such as the Tutu Hi-Rise and 
residential communities within the territory. In the immediate 
aftermath of the storms, temporary housing is needed on the 
ground.
    Other areas of concern is our schools. The overriding 
concerns in the area of education is the split sessions of many 
of our schools in the territory. In retrospect we could have 
done better in collaboration with FEMA.
    I recognize that my time has ended. I'm available to answer 
any questions the committee deems necessary. Thank you very 
much, Mr. Chairman.
    [Prepared statement of Mr. Jackson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
            
    Mr. Farenthold. Thank you. We do have your testimony. I 
read it beforehand and I appreciate it.
    Senator Roach, you are now recognized for 5 minutes.

                 STATEMENT OF TREGENZA A. ROACH

    Mr. Roach. Good morning, Chairman Farenthold. Good morning, 
Delegate Plaskett, to your staff, to the people of the Virgin 
Islands.
    My name is Tregenza A. Roach, a member of the 32nd of the 
United States Virgin Islands. This is my third term.
    Despite my office, however, I would like to speak to you as 
a private person, a resident who experienced both Hurricanes 
Irma and Maria firsthand, as a person who had to navigate the 
recovery process for my aging mother whose home sustained 
substantial damage, and as a person who helped others navigate, 
which has been an arduous recovery process.
    Secondly, I would like to share my thoughts as a 
policymaker, especially in light of the fact that a new 
hurricane season starts in June, and in light of the 
information provided by many of those who study the changes in 
the world's climate and warned that most storms like these are 
in our future, more fierce and damaging than those we have 
experienced before.
    My mother is an 82-year old widow who has her faculties. 
She tills the soil and harvest everything from pumpkin to 
guavaberry. That is to say that despite some of the maladies 
that accompany aging, she is a fit and active woman. But for 
the first time in a hurricane season I had to get her off the 
island for her own sanity and for mine, and was then left to 
take charge of dealing with FEMA, the Army Corps of Engineers, 
the Small Business Administration, insurance companies, banks.
    Immediately after Hurricane Irma, I was on a hunt for a 
tarpaulin to cover the leaking roof. None was available up to 
the coming of Hurricane Maria on September 19, 2018. I was able 
to secure covering for the leaking roof only because a 
colleague, Senator Alicia ``Chucky'' Hansen, was able to 
purchase a tarpaulin commercially and bring it over on a mercy 
flight from St. Croix before they were hit with Hurricane 
Maria. I paid three men to go on the roof and put the tarp in 
place, but Maria came and pretty much disposed of it.
    Weeks after, the Army Corps of Engineers came on the scene 
and covered the roof with blue. The tarpaulin has leaked since 
then despite follow up visits from the Corps and a local 
contractor who they identified to the project. I simply gave 
up. Virgin Islanders are not begging people. So I, like others, 
simply gave up and deployed pots and pans at strategic places 
on the floor to capture the flow.
    As for FEMA, they subsequently sent an inspector who I 
thought was very thorough in verifying the damage. They 
inquired about insurance. I told them there was a policy but no 
content and limited structural. But their denial letter 
followed and a check of $500.00.
    I visited their center, sat with everyone else, provided 
proof of the limits on insurance and then received my second 
denial letter. I can appeal when I finally settle with the 
insurance company, which has not yet taken place. The letters 
have been terse with no consideration for the recipient.
    The SBA process was initiated in October. Their denial was 
also swift in coming.
    This is an aging population, both nationally and locally, 
and so I find it instructive to look at the impact of the 
processes on the elderly. Of the many calls that I received 
from the elderly, I want to tell you of another which 
illustrates the insensitivity of the process to wounded persons 
seeking only the assistance of their government.
    Another 82-year old came to my office, a woman with her two 
denial letters. FEMA denied her assistance because she could 
not prove that she owned the property in which she lived and 
SBA because she could not prove that the property in which she 
lived was her primary residence. This is the case of a woman 
who had moved into the house owned by her father. She had 
continued to live in the house after taking care of him for 17 
years up to his death.
    I contacted FEMA and posed the question of whether the 
woman could simply get a power of attorney from the four 
siblings confirming that they were all part owners of the 
property as per the will, that she lived on the property to 
take care of her father, and that she continued to live there 
with their consent and was authorized to proceed with the 
recovery process on their behalf.
    The FEMA officials to whom I spoke to said ``yes,'' but no 
one at any of the centers had shared this possibility with this 
aging, tired woman. She was on her own.
    As a policymaker, I think we must address the following: A 
more effective and timely process by the Army Corps of 
Engineers with roof coverings after a storm.
    A permanent FEMA process--presence, sorry, in the territory 
or enter the fact that this is to become our new reality and 
that a permanent presence would mean a more efficient 
experience, particularly for our sister island of St. John who 
can be cutoff totally of power and communications with the loss 
of a cable from St. Thomas.
    A Federal approach to recovery which considers the whole 
person who suffer mental and health issues following a storm, 
and a process which is more timely.
    I thank you for listening to my testimony. I'll await any 
questions that you may have.
    [Prepared statement of Mr. Mr. Roach follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Mr. Farenthold. All right, thank you very much. I'll 
recognize myself for 5 minutes of questioning.
    So, Senator Roach, I want to first point out that I 
understand the issues with FEMA having dealt with this with a 
constituent issue as well. I've spoken to FEMA numerous times 
and volunteered to rewrite their letters for them because 
typically a denial letter from FEMA is not a denial letter. 
It's there is something wrong with your file. It needs to not 
say denial right there up in the top in big lettering. It needs 
to--it definitely does need to be more compassionate.
    With that being said, let's talk a little bit about 
housing. You've got a unique situation in the Virgin Islands 
with respect to housing. In the district I represent we have 
hundreds of people living in temporary housing in hotels. But a 
vast majority of the hotels in the Virgin Islands are 
unoccupied, and filling those hotel rooms with local residents 
takes away from the ability of other local residents to make 
money off of tourist.
    If you were the President or if you were the head of FEMA, 
what would you do to address the short-term housing needs? It's 
my understanding we still have people in the Virgin Islands 
living in tents.
    Mr. Roach. Well, I think I would offer a two-pronged 
approach. I remember in the aftermath of Hurricane Marilyn that 
there were temporary structures that were erected. I can recall 
at least two places on the Island of St. Thomas, one on the 
east and one just adjacent to the Charlotte Amalie High School 
which provided temporary housing.
    I think the other consideration would be how to make 
damaged homes more liveable. The second part of my testimony, 
which I didn't read, which you have for the record was a new 
program, at least new to the extent that I was made aware of it 
on approximately the 10th of February. That is a program that 
is being conducted under the auspices of the Virgin Islands 
Housing Finance Authority and it is intended to make living 
spaces more habitable.
    So I applied for that program on the 14th of February. I 
know because it was Valentine's Day. They subsequently sent out 
an inspector, who I believe--actually a team of inspectors who 
were very thorough.
    I mean, they asked questions about whether there was hot 
water to the property. They asked questions whether there was 
any damage to the gas lines bringing gas into the kitchen. They 
asked if there was a working refrigerator. They asked about 
smoke detectors. They asked about whether the cistern had been 
cleaned, et cetera.
    But then the follow-up visit I just found out on Saturday 
that just past, the 10th of March, that they are now coming 
again to the property with an inspector.
    Now, although it seems to me that is a very thorough 
program, we are looking again. I initiated my FEMA application 
on the 14th of September. I was one of those few people who had 
internet access and I did the application online, the 14th of 
September. This is the 12th of March and except for the leaking 
tarp, except for the $500.00 from FEMA, I think that sums up 
about the assistance.
    And I think making the space more liveable would be 
incredibly good for the mental health of the person, one; and, 
two, particularly--and I always want to emphasis the elderly--
particularly in the instances of the elderly, if they could 
stay in their home with just some accommodations to make it 
more liveable, I think they would be in a better condition to 
complete the recovery process.
    Mr. Farenthold. Thank you.
    Senator Jackson referred a little bit about insurance as 
well and how long it's taking for the insurance company to pay. 
In Texas the vast majority of hurricane assistance--insurances 
is handled by TWIA, which is the State-operated insurance 
programming. Believe me we've had plenty of complaints about 
that. I'm glad I'm not in the Texas legislature. I only have to 
deal with FEMA, not TWIA.
    In the Virgin Islands can you talk a little bit about the 
experience of collecting insurance, and if there is anything 
you think either the State or the territory or the Federal 
Government ought to do to improve that?
    Mr. Jackson. I thank you, Mr. Chairman.
    The issues relating to insurance in the territory has been 
one of contention. Many of the homeowners have expressed their 
displeasure in the manner to which their insurance companies 
have taken them through the process of their adjustors and 
likewise the time that it took for the adjuster to arrive at 
their homes.
    In addition to that, the issue of under insurance continues 
to be a big issue here in the territory. Of course education is 
key. And through Banking and Insurance and several of the 
forums prior to the storm encouraging our residents to be much 
more educated in the process to which they purchase insurance 
and likewise what under insurance would mean in the event of a 
devastating hurricane or disaster. For the most part most 
residents here have windstorm insurance coverage, very little 
have flood insurance.
    So as a result of the challenges that many have had with 
our insurance companies, we have had an engagement with Banking 
and Insurance in reference to how we can improve the process 
here in the territory and likewise protect the interest of the 
consumer as they are purchasing insurance through these 
companies, and likewise the fine line that many may not read in 
reference to the coverage and likewise make informed decisions.
    Likewise the banking community also has a responsibility to 
make sure that their customers are also fully aware of the 
process to which the banks and the customer have a relationship 
with coverage for their homes in the territory.
    Mr. Farenthold. And I see my time is up. Hopefully, we'll 
have time to do one more round of questions because I do have 
some questions. I do have one quick question, though. It's kind 
of a yes or no.
    The flood insurance here is the same as in the continental 
United States, right? It's underwritten by FEMA?
    Mr. Jackson. Yes.
    Mr. Farenthold. All right, Ms. Plaskett, you are up for 5 
minutes.
    Ms. Plaskett. Thank you.
    I did, Mr. Chairman, I want you to know, however, that it's 
my understanding for most homeowners here what the insurance 
that they need would be in fact windstorm insurance, which for 
many homeowners can run over a thousand dollars a month.
    Mr. Farenthold. Trust me, I live in a hurricane zone.
    Ms. Plaskett. Right, so that's the concern.
    Thank you so much for being here. And, Senator Jackson, so 
much of your testimony that you were not able to give but it's 
written testimony, it's very informative. I'm sure that the 
Committee will have a chance to read through much of it. So the 
questions that I'm going to ask are directly related to your 
statement so that you can get that information on the record as 
well.
    I wanted to ask you, Senator Jackson, about debris removal. 
If you could or, Senator O'Reilly, talk about the difference 
between the debris removal on St. Thomas, which was run by the 
Army Corps--managed by the Army Corps and St. Croix, which was 
managed by the Department of Public Works which I understand. 
Could you tell us about how that process has occurred here in 
the Virgin Islands?
    Mr. Jackson. I'll let Senator O'Reilly speak to St. Croix.
    I'll speak to St. Thomas in that for many of us it's been 
very frustrating with the process of debris removal from our 
neighborhoods, highways and the like. I would say that the 
early process to how we get to clean up our communities has 
been one of contention.
    I say contention in that many of the areas of our 
communities still have debris. We visited St. John yesterday on 
the east end and I was aghast of the amount of debris that is 
still on the roadsides in addition to the utility wiring and 
some of the remnants of our electrical poles and the like that 
are littered on the side of our roads.
    The Army Corps of Engineers in collaboration with the 
Department of Public Works and of course the company series has 
been engaged in this district. And of course through the 
process of public announcements, which I feel in many ways have 
not been very successful because if you don't listen to a 
particular radio program, you may not know the schedule coming 
into your neighborhood and the like.
    So there needs to be more on the ground communications with 
residents in terms of when do you put out your green waste, 
when do you put out your electronic waste and other items? In 
some cases residents have had to really struggle, especially 
our elderly in getting that waste to the curbside in many of 
our neighborhoods, which has been very challenging for many of 
our residents, especially our elderly.
    Ms. Plaskett. Can I ask when did you first see Federal 
agencies on the ground doing waste removal, debris removal? Can 
you recall?
    Mr. Jackson. Well, right after the storm the Department of 
Public Works was mobilized. In addition to that, we had the 
military on the ground and other emergency entities like what 
we have here in terms of the response.
    Ms. Plaskett. Do you know when that was? Because as I 
recall for quite a number of weeks it was Public Works, yes, 
the local Public Works and residents who were doing much of the 
debris removal.
    Mr. Jackson. Much of the debris removal began with the 
residents of the territory. Public Works started to deal with 
the main thoroughfares. But within our residential communities 
they were challenged with the lack of assistance in getting out 
of their respective neighborhoods and into the main 
thoroughfares of our roadway system.
    Ms. Plaskett. Thank you.
    Senator O'Reilly, you have spent an enormous amount of time 
in the hospitals in dealing with the issues there. Is there 
anything that you would like to share with the committee about 
the evacuation, the hospital process or anything you'd like to 
add at this point?
    Ms. Rivera-O'Reilly. I would. And good morning, Chairman 
Farenthold and Ms. Plaskett.
    With the few seconds left, I'd like to share----
    Ms. Plaskett. You can take more than a second.
    Ms. Rivera-O'Reilly. Thank you.
    I'd like to share the--since the president already 
mentioned the concerns regarding the medical evacuees, I'd like 
to share specifically regarding the structures of the 
hospitals.
    It is my opinion, as the chair of the Ad Hoc Committee on 
Hospitals and Human Services, that the assessment by FEMA of 
the structures is too slow, that the change in personnel by 
FEMA has delayed the final assessment of the structures. Now 
the assessment has to establish that the repairs would cost 50 
or more percent in order for a new structure to be built.
    As of today, we still do not know whether we will have new 
hospitals. In the interim, individuals are flown out of the 
territory on a daily basis to receive medical care. I think it 
is unacceptable that a Federal agency that is trained to 
respond to disasters such as FEMA has taken this long to make a 
final determination regarding the status and the condition and 
the future of our healthcare structures, infrastructures and 
our healthcare services.
    Ms. Plaskett. Thank you.
    Mr. Farenthold. Now we'll move to the second round of 
questions because I've probably got enough to keep us here all 
day. But let's visit for a second and I'll ask each of our 
panel members if you would tell us what--with respect to the 
Federal response, if you would give us what you think the best 
thing done is and the worse or a suggestion for improvement, 
where we need to focus primarily on improvement.
    I'm one of these people who believes if you are going to 
criticize something you also need to say something good or have 
a suggestion for fixing it. So I'll give each of our folks a 
chance to do that.
    Senator Roach. Senators are an ambiguous term here.
    Mr. Roach. Well, I would echo the Delegate in recognizing 
that the assistance provided by the Federal Government is 
valuable and useful, and that the people who came to assist 
with the process are people who left their homes and their 
families to come here and spend time with us in a very 
difficult moment. So I think we definitely would have to be 
appreciative of that.
    I think one of the programs that I got the least complaints 
about was the food, the SNAP Emergency Disaster Funding. But as 
a thought on how we could improve going forward, I really 
believe that the people involved in the process have to be more 
sensitive to what we are experiencing here, and to be mindful 
of the fact that we are living in a place that is going to be 
exposed to more of these storms.
    We're living in a place that has, if not the highest, it's 
certainly one of the highest cost of living under the United 
States flag, and that construction cost and food cost are not 
what they imagine them to be. And if they approach it with that 
kind of information and with that sensitivity, I think the 
process can be improved for everyone.
    Mr. Farenthold. Senator Jackson, do you want to take the 
same question?
    Mr. Jackson. Thank you, Mr. Chairman.
    As Senator Roach stated in reference to the aid that the 
FEMA disaster has provided to the territory and their response 
to the territory, we are grateful. I think the areas that I 
would like to see improved is that how do you deal with 
territories during a natural disaster?
    Of course we're separated by water by thousands of miles. 
The protocols that were put in place, for example, for the 
storage of emergency goods in Puerto Rico, we can all say that 
that's a failure, that likewise the Virgin Islands was impacted 
by these two hurricanes, and that Puerto Rico also was severely 
impacted, and that the ability to provision the U.S. Virgin 
Islands became even more so challenging.
    In areas, for example, a hurricane zone like the Virgin 
Islands or the Caribbean, but specifically to the Virgin 
Islands, the loss of roofing material is going to be the 
greatest impact that you would have from storms and 
infrastructure. The issues relating to not having available 
tarps in the territory to sufficiently cover our people during 
these storms is an area that we should improve in terms of how 
do we take care of the population?
    One of the areas also was food security. Many of the meals 
ready to eat coming on the ground it's understandable as you 
address the immediate recovery or response to the community. 
But then at the same time who makes those decisions in terms of 
what meals, whether they are culturally sensitive?
    So the Red Cross stepped up to the plate as well as 
individuals like Tim Duncan that provided wholesome meals to 
our community versus meals ready to eat and snacks in boxes. So 
the nutritional health of our communities is really very 
important. I think those were the areas that FEMA could do 
better in.
    And likewise the response on the ground in getting the 
professionals in to the territory. For example, we've been 
advocating for the impact of cultural resources and only most 
recently professionals have come in to the territory to assist 
entities in this regard of our cultural institutions, our 
libraries, our museums, our cultural heritage sites and the 
like.
    Those are just some examples that I provided to you, Mr. 
Chairman, that we could do improvement in.
    Mr. Farenthold. And, Senator Rivera-O'Reilly, do you want 
to take a stab at that one as well.
    Ms. Rivera-O'Reilly. I'd like to. Thank you so very much.
    I think that shelter, water and food are essential in the 
immediate response. We felt very comforted by the presence of 
the military and we are so thankful. As soon as military trucks 
were on the ground in collaboration with our National Guard, it 
gave our citizens a sense that they were being taken care of. 
There were truckloads moving across the islands filled with 
water and MREs. I am so grateful, I am so grateful for that.
    There are a number of areas that I believe can be improved. 
I urge you to consider the increase in the reimbursement rates 
under CMS for Medicare and Medicaid. It will help our hospitals 
significantly to remain operational.
    I also urge you to look at the manner in which the Army 
Corps of Engineers rolls out their Blue Roof Program. It is 
designed for stateside housing, for stateside roofs, not 
Caribbean construction. And so when they came out and installed 
the blue roofs, what they did was caused greater damage to the 
roofs. So where there was one leak after the blue roof was 
installed, the residents expected there would be no leaks, 
there were multiple leaks.
    I also would like to recommend that when FEMA comes to the 
ground that it comes with its own pods, that it brings its own 
shelters because they have saturated the remaining hotel rooms 
in the territory. What that did was that it inhibited and 
impeded adjusters from coming to the territory because there 
was no housing. So all of your Federal personnel completely 
saturated the remaining hotel rooms, also limiting hotel rooms 
for the tourists.
    I will also ask that you consider including the Virgin 
Islands in the Denton Act. It turns out that we are not.
    So military airplanes cannot be utilized to move 
humanitarian aid to our Virgin Islands after disasters. We need 
to be able to use military planes so that individuals in the 
mainland who want to send supplies are able to do so.
    Those would be my requests. Of course if you allow me more 
time, I'd say that FEMA should as well as SBA consider 
including non-English proficient individuals in the teams that 
they send to the territory.
    Thank you, Mr. Chairman.
    Mr. Farenthold. Thank you.
    I thought FEMA did that. We've got a lot of Spanish 
speakers down in our area. I'll certainly look into that as 
well.
    Ms. Rivera-O'Reilly. They didn't here.
    Mr. Farenthold. All right, Ms. Plaskett, we'll let you go 
and then we'll finish this round of questioning and go to our 
Federal agencies.
    Ms. Plaskett. Thank you, sure.
    I have three pieces--three written testimonies that I'd 
like to include in the record. One is from Virginia Clairmont, 
Queen Street, Frederiksted. The other is presented by Mrs. Ruby 
Simmonds Esannason here on St. Thomas. And then the third is by 
Senator Jenelle Sarauw, a Senator in the 32nd Legislature.
    Mr. Farenthold. Without objection so ordered.
    Ms. Plaskett. Thank you. And before I ask questions, there 
was just a couple of pieces in this testimony that I wanted to 
get on the record before I ask these questions.
    One, of course, is the very moving testimony and statement 
that was given by Mrs. Simmonds Esannason talking about the 
evacuees which has been discussed by the witnesses here this 
morning, by the senators. She says in the State of the 
Territory Address presented on January 22, 2018, Governor 
Kenneth E. Mapp noted that 682 persons were evacuated for 
medical reasons and some 248 still remain on the mainland at 
that time. Since then I have asked what happened to the other 
434 persons? How many of them came home in the cargo section of 
the plane?
    I can tell you specifically about the ones I know of, 
including my son-in-law, the aunts of two of my stepdaughters, 
a very dear friend, and the relatives of other persons with 
whom I've spoken or whose stories have been reported in the 
news.
    There are so many people that we lost during these 
hurricanes. But she gives specifically the names of Sergeant 
Aaron Hodge, Sr., Ashley Frett, Sr., Cynthia Thomas, Arroya 
Correa Rivera and El Marina Palmer, all of whom died after the 
hurricanes in the States as medical evacuees.
    I think that's important for us to remember that the 
effects of hurricanes here in the Virgin Islands continued well 
after the actual hurricanes took place.
    One of the things that she points out that I'd like to then 
present a question to the witnesses is that she talks about 
going to VITEMA, which is the Virgin Islands Territorial 
Emergency Management Agency seeking information about where 
individuals were after leaving the hospital.
    Were they in Puerto Rico? Were they in St. Croix? Where 
were they located? For quite a period of time many individuals 
could not be found.
    She says she was able to find out from Sergeant Hodge that 
when he was in Puerto Rico the situation that he faced there 
was really not a very good one. When he was in Puerto Rico, I'm 
quoting, ``He told me that drinking water was being rationed. 
He was being given water in a container the size of a fruit 
cup. That's about three ounces. This is what was given to a 
full grown adult. He was eventually evacuated to Atlanta, 
Georgia where, unfortunately, he passed away.''
    I would like to ask the senators these questions. And 
Senator Sarauw also talks about the situation on St. John 
probably being more dire than the situation on the other 
islands. She talks about the distribution sites which Senator 
O'Reilly also gave us some indication about how important they 
were.
    My question to you all really relates to the relationship 
and the amount of communication and the coordination between 
the Federal Emergency Management Agency and the local one.
    Knowing that we're dealing with two Category 5 hurricanes 
and that our own resources are very restrained, FEMA has been 
at this for innumerable years, do you feel that there was 
sufficient support coming from FEMA to pick up the gaps 
initially knowing where they were? How did that work? Was that 
done correctly? Are there ways that it could be improved, the 
coordination between FEMA and the local agencies that are in 
place? How can we work on that better?
    Senator Jackson.
    Mr. Jackson. It's a very good question and we've spent a 
tremendous amount of time in the EOC and VITEMA and had the 
opportunity to actually witness and to be engaged with the 
process of response. I have to say on both sides we need to 
work on the response from a natural disaster in the territory. 
I think given the fact that we are islands, we are outside of 
the continental United States and that likewise FEMA's history 
in the territory, of course Hurricane Hugo and Hurricane 
Marilyn, gave the territory some experience as it relates to 
FEMA and what is necessary for emergency response.
    Who would have imagined that the Virgin Islands in its 
centennial year would be struck with two Category 5 hurricanes 
12 days apart? Who prepares for that? And how does an emergency 
entity like VITEMA with limited resources really rise to the 
occasion of responding to the disaster? They, themselves, were 
not fully prepared and likewise FEMA representatives coming 
into the territory with the lack of communications, driving 
around this territory most time were lost, not having the local 
scout or representative with them as they were going into these 
various neighborhoods was very challenging.
    I do think that we really need to revisit how FEMA and the 
territory protocols are put in place for a response in light of 
these two hurricanes. And likewise most recently the tsunami 
notification to the territory that created a panic to our 
residents, we need to be prepared, fully prepared. Likewise how 
our relationship with the Federal Government hitting the ground 
is to be done because it was very chaotic.
    Ms. Plaskett. Did anyone else want to add something to 
that?
    Ms. Rivera-O'Reilly. I'd like to, Congresswoman Plaskett.
    I believe that we should consider training a cadre of local 
residents who are now currently working with FEMA, train them 
so that they, too, are able to be deployed to other areas in 
the United States that are hit. So that when, not if, but when 
this territory is again the victim of a disaster, that those 
FEMA trained local residents are deployed here because they are 
more familiar with the territory.
    I also felt that FEMA took a back seat and allowed VITEMA 
to take the lead. I am not sure--and I know that that is the 
protocol. I know that we are in charge. But I'm not sure that 
we can be in charge of solving our own disasters when our own 
homes are affected.
    Ms. Plaskett. When you are in the middle of it yourself.
    Ms. Rivera-O'Reilly. Yes, if you are in the middle of the 
disaster it is difficult to really see, and so FEMA would take 
a step back and allow the local government to make the 
decision. I would prefer to see a real partnership, a side by 
side relationship where best practices are recommended to the 
local government so that VITEMA is empowered because it had to 
respond to disasters on all four islands.
    Ms. Plaskett. Thank you.
    I know that I had heated and very colorful discussions with 
Brock Long because FEMA of course as we know in the Federal 
Government only gives what is requested. But if you don't know 
what to request and you are dealing with the magnitude of 
disaster, it's difficult to make those kind of assessments on 
the ground.
    There needs to be--we end up hiring companies to assist us 
in making the request. There should be a natural liaison in 
working with FEMA. It's kind of like they are almost hiding the 
money or hiding the ball and you have to figure out which hand 
it's in to ask the right thing. So, thank you.
    I know that's also frustrating for the FEMA workers who are 
here on the ground who want to do the right thing, who have 
empathy and want to be a part of the recovery. But they have to 
wait for the okays that they are getting in Washington.
    And if you would, Senator Roach.
    Mr. Roach. Thank you, Delegate Plaskett.
    I think we have to consider the need for adjustment of 
policies and processes both locally and federally. In our case 
we have a statute that gives the Governor complete authority to 
deal with the Federal structures in a state of emergency. He's 
the point person for FEMA. He gets to determine whether a state 
of emergency should be extended and the length of time that it 
can be renewed. I think we ought to look at that structure.
    I think if the reality of the persons living offshore of 
the United States, and in particular the residents of the 
Virgin Islands and Puerto Rico, that it is time to also 
consider new structures.
    I believe that FEMA should have a permanent presence in the 
territory, that they should literally be here year-round. I 
believe that that would assist in having better relationships 
with them and the local agencies. It would lead to a more 
timely response in the case of natural disasters, and that we 
are living in extraordinary times that call for extraordinary 
solutions that we might not have considered before.
    Thank you.
    Ms. Plaskett. Thank you.
    I know we are finishing this, but I would like to also 
place into the record another testimony, written testimony, a 
statement for the record that was given to me by Meaghan 
Enright. She is a resident of St. John and has been working 
with Love City Strong and Love for Love City Foundation on the 
recovery efforts in St. John.
    Mr. Farenthold. Without objection so ordered.
    Mr. Farenthold. I'd like to thank our panel for being here 
and answering our questions and providing both the written and 
verbal testimony. We could go on but we do have a panel of 
Federal folks that we would like to talk to as well. So thank 
you all for being here. It's been great visiting your island.
    In order to allow us time to set up for the next panel, 
we're going to take a 5-minute recess.
    [Recess.]
    Mr. Farenthold. The subcommittee will come to order. I love 
the big gavel. It's like twice the size of the one we use in 
Washington.
    We've got a new panel of witnesses. I'd like to take the 
opportunity to introduce them.
    First we have Mr. William ``Bill'' Vogel. He's the Federal 
Coordinating Officer at the Federal Emergency Management Agency 
a/k/a FEMA.
    We have Mr. Murad ``Mojo'' Raheem, the ASPR Regional 
Emergency Coordinator for Region II at the Department of Health 
and Human Services. Welcome.
    We have Colonel Scott Heintzelman, Defense Coordinating 
Officer for FEMA Region II at the Department of Defense.
    We have Colonel Robert J. Clark, Commander of the U.S. Army 
Corps of Engineers Field Recovery Officer or Office.
    Mr. Randy Lavasseur, Caribbean Group Superintendent for the 
National Park Service.
    And we have Mr. Henry ``Hank'' Dynka. He's the manager of 
In-Plant Support for the Northeast Area of Operations for the 
United States Postal Service.
    Welcome, gentlemen. And pursuant to committee rules, we ask 
that you stand and be sworn in.
    Do you solemnly swear or affirm that the testimony you are 
about to give is the truth, the whole and nothing but the truth 
so help you God?
    Thank you. You all may be seated.
    Let the record reflect all the witnesses answered in the 
affirmative.
    I believe all of you were in the audience for our first 
panel. The same basic rules apply. We've got your entire 
written testimony and we ask that you give a synopsis within 5 
minutes, hit the high points. As I said, the yellow light means 
we're just about done. Red light means wrap it up.
    So we'll start first with Mr. Vogel. You're recognized for 
5 minutes, sir.

                            PANEL II

                       WITNESS STATEMENTS

                   STATEMENT OF WILLIAM VOGEL

    Mr. Vogel. Good morning, Chairman Farenthold, Ranking 
Member Plaskett. My name is William Vogel, the Federal 
Coordinating Officer. I'm here to testify about the critical 
role that FEMA has played in the U.S. Virgin Islands over the 
past 6 months.
    U.S. Virgin Islanders were making progress after the 
devastation of Hurricane Irma in September when just two weeks 
later the second Category 5 storm struck the territory. And in 
the months since Hurricane Maria, a large scale coordinated 
effort has been underway to help the island communities and 
survivors get back on their feet.
    FEMA and our Federal partners are working with the U.S. 
Virgin Islands Government to drive the recovery forward to meet 
the needs of hurricane survivors and to repair and rebuild 
communities stronger and safer and to lessen the impact when 
storms strike in the future.
    FEMA coordinates the Federal response to a disaster and in 
the U.S. Virgin Islands we initially assigned 55 other Federal 
agencies to assist in response and recovery. These agencies 
responded immediately and deployed personnel to the territory 
along with the Department of the--I'm sorry, the Department of 
Homeland Security served capacity for us and FEMA.
    Within two weeks of Maria, 2,500 Federal employees had been 
deployed to the U.S. Virgin Islands in addition to 6,000 Coast 
Guard and Department of Defense staff served both the USVI and 
Puerto Rico. All totaled we issued 331 mission assignments 
totaling $698 million.
    In the 6 months of recovery, milestones have been achieved. 
Roads have been cleared of storm related debris, most of the 
airline flights have resumed, seaports are active, and stores 
and restaurants have opened. I'm pleased to note that the 
Virgin Islands Water and Power Authority reports that power has 
been restored to all customers able to receive electrical 
hookups in the territory, more than 55,000 customers.
    For FEMA's individual assistance and public assistance 
programs and low interest disaster loans from the U.S. Small 
Business Administration and claim payments by the National 
Flood Insurance Program, more than $810 million has been 
provided to households, businesses and territorial agencies as 
a result of Irma and Maria. As of the 9th of March, more than 
$74 million has been provided directly to individuals and 
households for rental assistance, housing repairs and other 
needs.
    Housing is a priority for us because many homes were 
damaged and there are few rental resources available. There is 
no standard solution for survivors. Each person's situation is 
very unique. We are very much aware of the people living with 
friends and relatives creating very difficult living 
conditions. I can tell you that I have spoken personally to 
people who are desperate for housing on the islands.
    We have several programs that are helping. We provide 
grants for home repair. We provide rental assistance. We are 
funding territorial programs for the Emergency Home Repair V.I. 
to provide money for people to make basic emergency repairs so 
that they can stay in their home while they work on a long-term 
solution. The funding comes from FEMA's Sheltering and 
Temporary Essential Power Program.
    We have the Multi-Family Lease and Repair Program to pay 
for repairs to rental units if the landlord will let us place 
disaster survivors in those units.
    We have a direct lease program in which we lease rental 
units and place survivors in them. We also have a permanent 
housing construction direct repairs so that we can hire 
contractors to make essential repairs in lieu of providing 
other financial assistance.
    We've operated a total of 10 disaster recovery centers 
across all three islands to help answer questions related to 
these assistance programs and survivors' specific housing 
needs. These centers receive more than 65,000 visits.
    We've completed all housing inspections and we are reaching 
out to individual survivors who have special housing needs.
    The housing side of recovery is never a simple process. But 
for a territory that expands several islands where housing 
resources are scarce, the challenges are multiplied. We're 
looking for every possible way to support survivors who need 
housing. This is my number one priority.
    Installing temporary facilities for critical infrastructure 
is also a top priority. FEMA's public assistance program staff 
is working closely with the Virgin Islands Department of Health 
and Education to construct interim facilities for medical and 
hospitals and schools that were damaged. FEMA is also working 
with our Federal and local partners on making permanent repairs 
to those critical facilities and other public infrastructure.
    To date we have reimbursed the territory $262 and a half 
million for emergency work, mostly for debris removal and other 
power restoration. At the outset it was important to get 
electrical power restored and remove debris from roadways.
    I can report that, working with the Army Corps of Engineers 
and the territorial agencies, we've removed 887,000 cubic years 
of debris left by the storms, a 102 percent is the total 
estimated debris beginning at the operation. FEMA has 
authorized a 100 percent cost share for debris removal.
    Nearly 800 power company workers were deployed to the 
islands to restore power. Students were able to return to 
school within weeks after the hurricanes because of the 
generators installed by the Army Corps of Engineers. In all, 
the Army Corps installed 180 generators in critical facilities 
such as schools, hospitals, emergency services, government 
agencies and other places enabling communities to continue 
functioning after the storms.
    It's been a big operation, particularly with the logistics, 
challenges involved in providing assistance to the island 
communities. We are deeply aware of the stress that these 
hurricanes have placed on the population and the territorial 
government. We will continue to support the territory's 
priorities and we will be on the job until the territory tells 
us when we have completed our work.
    I appreciate the opportunity to appear before you today and 
I look forward to answering your questions. Thank you.
    [Prepared statement of Mr. Vogel follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Farenthold. Thank you very much.
    Mr. Raheem, you are recognized for 5 minutes.

                   STATEMENT OF MURAD RAHEEM

    Mr. Raheem. Good morning, Chairman Farenthold and Ranking 
Member Plaskett.
    Thanks for the opportunity to testify on behalf of the 
Assistant Secretary for Preparedness and Response, ASPR, to 
discuss our Nation's medical and public health response and 
recovery efforts to the hurricanes that impacted Puerto Rico 
and the United States. I am Murad Raheem, the Regional 
Administrator of Region II within ASPR.
    The scale and scope of this year's hurricane season was 
unprecedented. Never before has a response system been tested 
to support the impact of three major storm systems within such 
a short period. While the National Disaster Medical System, 
NDMS, was supporting the response following landfall of 
Hurricane Harvey in Texas, the system had to mobilize in 
Florida, Puerto Rico and the USVI to support Hurricane Irma.
    Then, within days, Hurricane Maria made landfall in Puerto 
Rico and the USVI impacting many of the same communities. 
Despite the challenges, ASPR provided professional and trained 
personnel and resources to mitigate the impact of the storms 
ultimately saving lives.
    When ASPR was originally established by Congress a decade 
ago, the objective was to create ``unity of command'' by 
consolidating all Federal public health and medical 
preparedness and response functions under ASPR. ASPR leads the 
Federal public health and medical, preparedness, response and 
recovery to disasters and public health emergencies in 
accordance with the National Response Framework and Emergency 
Support Function No. 8, public health and medical support.
    ASPR also coordinates with other components of HHS with 
respect to HHS' role in ESF No. 6, which is health and social 
services and HHS' lead role as the coordinating agency with 
respect to the Health and Social Services Recovery Support 
Function. ASPR is in effect the national security mission 
manager for HHS.
    Specific to my role within ASPR as the REC in Regional II, 
I worked to build and maintain relationships with State, local, 
territorial and tribal officials and healthcare representatives 
daily. These established relationships proved critical during 
the immediate preparedness for and response to Hurricanes Irma 
and Maria.
    Given my daily coordination and communication with 
officials before the hurricanes hit, I was familiar with local 
resources and, as such, was able to ensure the Federal response 
to local needs.
    Since late October, I've also served as the Federal Health 
Coordinating Official. In this role I'm the primary point of 
contact supporting information between HHS and local officials.
    Specific to the response provided following Hurricanes Irma 
and Maria, ASPR's strategy has been three-fold, save lives, 
stabilize the healthcare system and restore services. To save 
lives and stabilize the healthcare system, approximately 2,500 
NDMS personnel were deployed to the impacted areas and were 
supported by approximately 21.5 tons of equipment.
    While deployed, personnel provided care to over 2,500 
patients in the USVI specifically. Care included providing 
access to trained medical assessments, treating minor injuries, 
dispensing medicine and water, wound care and assessing 
injuries.
    When care exceeded capabilities, NDMS supported the 
evacuation of patients. We evacuated approximately 211,000 
patients from the USVI before, between and after Hurricanes 
Irma and Maria.
    Our partners, the DOD and the Department of Veterans 
Affairs were key components of these moves. Once the hurricanes 
passed, teams provided onsite medical care through Federal 
Medical Stations with 50 to 250 beds provided through the 
strategic national stockpile.
    HHS also activated the Emergency Prescription Assistance 
Program known as EPAP for both the USVI and Puerto Rico to 
ensure victims who were unable to pay for prescriptions 
received the required medication. Ensuring that people are 
still able to access these supplies that they rely on everyday 
helps patients cope with disaster more effectively and prevent 
stress on the healthcare system.
    Now that much of the response effort is concluding, ASPR is 
continuing to support the USVI through its recovery operations. 
Currently, HHS personnel are deployed long-term under the 
authorities of the National Disaster Recovery Framework and are 
in continual coordination with local officials to maintain 
situational awareness, link local officials to resources, and 
assist with challenges or issues as they arise.
    Our primary mission is to support a locally led recovery by 
building capacity with the USVI government and other key 
stakeholders that carryout the critical health and social 
services to the island residents.
    In conclusion, the devastation caused by Hurricanes Irma 
and Maria overwhelmed local, State and territorial healthcare 
capabilities. ASPR provided the resources to meet existing 
medical requirements, transport patients to ensure proper care 
when needed, utilize authorities like EPAP to ensure the 
population received critical prescriptions, and will continue 
to coordinate on issues impacting long-term recovery.
    There is much work left to be done, but we have ensured the 
public health and medical requirements within the impacted 
communities are able to support the population.
    I thank you again for this opportunity to address these 
issues. I'm happy to answer any questions.
    [Prepared statement of Mr. Mr. Raheem follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Mr. Farenthold. Thank you very much.
    Colonel Heintzelman, you are up for 5 minutes, sir.


                 STATEMENT OF SCOTT HEINTZELMAN

    Colonel Heintzelman. Good morning, Chairman Farenthold and 
Ranking Member Plaskett. I'm honored to be here and pleased to 
testify alongside my fellow mission partners for the 2017 
Hurricane Season.
    As USNORTHCOM's Defense Coordinating Officer for FEMA 
Region II, I'm proud to represent the active duty soldiers, 
sailors, airmen and marines, activated reservist and Department 
of Defense civilians who tirelessly supported the Federal 
responses to both Hurricanes Irma and Maria in the U.S. Virgin 
Islands. The enormous damage caused by these storms requires 
significant interagency response led by FEMA and supported by a 
range of Federal, State and local partners. USNORTHCOM is proud 
to be a part of that critical mission.
    As you all are well aware, the 2017 Hurricane Season was 
the most active in years with three major storms impacting 
millions of Americans. In the immediate aftermath of those 
hurricanes, active duty personnel were there to provide 
military capabilities to the FEMA led Federal response. Key 
contributions included strategic airlift, sea and airport 
surveys, search and rescue, route clearance, commodity 
distribution, rotary wing lift, high water vehicle support and 
medical capabilities. The active duty men and women under 
USNORTHCOM's direction made significant contributions to the 
response and recovery efforts in the U.S. Virgin Islands.
    I'm grateful for the support this committee has provided in 
support of the Federal response. I thank you again for giving 
me the opportunity to appear today and I welcome your 
questions. Thank you.
    [Prepared statement of Colonel Heintzelman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Mr. Farenthold. Thank you.
    Colonel Clark.

                  STATEMENT OF ROBERT J. CLARK

    Colonel Clark. Good morning, Chair Farenthold and Ranking 
Member Plaskett.
    I am honored to testify before you today to discuss the 
authorities and responsibilities of the United States Army 
Corps of Engineers during disaster response and recovery 
operations and the impacts to the U.S. Virgin Islands during 
the 2017 Hurricane Season.
    I am Colonel Robert Clark. I'm Commander for the Corps 
Field Recovery Office in the U.S. Virgin Islands. My permanent 
position is I'm the Commander of the Corps' Wilmington, North 
Carolina District.
    The Corps conducts its emergency response activities under 
two basic authorities, the Stafford Act and under Public Law 
84-99. Under the Stafford Act we are the Federal agency in 
support of FEMA under the national response framework. In this 
capacity the Corps is the lead Federal agency for Emergency 
Support Function 3, Public Works and engineering, and works 
under FEMA's direction.
    ESF-3 provides temporary emergency power, temporary 
roofing, debris management, emergency infrastructure 
assessment, critical public facility restoration, temporary 
housing, demolition and structural stability and support to 
FEMA command and control.
    Under Public Law 84-99, we prepare for disasters through 
planning, coordination and training with local, State, Federal 
partners, and by assisting State and local entities in 
implementing advanced measures to prevent/reduce storm event 
damages.
    When a disaster occurs, Corps teams and other resources are 
mobilized from across the country to assist the local Corps 
districts response to an event. As part of this mission, the 
Corps has more than 50 specially-trained response teams 
supported by emergency contracts to perform the wide range of 
Public Works and engineering support missions I just described. 
Additionally, the Corps uses pre-awarded contracts that can be 
quickly activated for missions such as temporary roofing, 
commodity distribution and generator installations.
    With regard to the hurricane activities, 2017 was an 
unusually active season. The Corps has been involved in a FEMA 
led Federal response and recovery operations for multiple 
events to include Hurricanes Harvey, Irma and Maria.
    FEMA has identified close to $3 billion in mission 
assignments for the Corps to assist in Hurricanes Irma and 
Maria response and recovery. In the USVI there have been 25 
mission assignments totaling 256 million.
    For temporary emergency power, the Corps and its 
contractors completed 316 pre-installation inspections for 
temporary generators and installed 180 generators in the U.S. 
Virgin Islands. The Corps has de-installed 165 generators out 
of the 180 installed with the remaining 15 installed generators 
that were turned over to FEMA logistics, which are being 
maintained by a long-term contract. The Corps' temporary power 
mission was completed on February 11, 2018.
    For temporary roofing, in order for the Corps and its 
contractors to install temporary covering, the blue roofing, 
the government and its contractors require a valid right of 
entry. In the U.S. Virgin Islands the Corps and its contractors 
have completed 3,658 blue roof installations. The blue roof 
mission was completed on December 15, 2017.
    For debris management, the Corps and the territory combined 
has removed over 822,000 cubic yards of the estimated 870,000 
cubic yards of debris in the U.S. Virgin Islands.
    The Corps remains fully committed and capable of executing 
its Civil Works activities across the Nation despite our heavy 
involvement in these ongoing response and recovery operations. 
We also remain ready and poised to assist in future events as 
they may occur.
    This concludes my testimony. I look forward to answering 
any questions you might have. Thank you.
    [Prepared statement of Colonel Clark follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Mr. Farenthold. Thank you.
    Mr. Lavasseur.

                  STATEMENT OF RANDY LAVASSEUR

    Mr. Lavasseur. Chairman Farenthold and Ranking Member 
Plaskett, thank you for your invitation to present the 
Department of Interior's views regarding the impacts on the 
U.S. Virgin Islands from the historic 2017 Hurricane Season. 
I'm accompanied by Daryl Heckles who's in the audience, the 
Acting Superintendent of the Virgin Islands National Park. I'll 
summarize my remarks and ask that my full statement be included 
in the hearing record.
    Mr. Farenthold. It will be.
    Mr. Lavasseur. Thank you.
    The National Park Service sites in the U.S. Virgin Islands 
include Christiansted National Historic Site, Buck Island Reef 
National Monument and the Salt River Bay National Historic Park 
and Ecological Preserve on St. Croix; and the Virgin Islands 
National Park and the Virgin Islands Coral Reef National 
Monument on St. John.
    These national parks play an integral part of the tourism 
economy. Nearly 600,000 people visited the national parks in 
the Virgin Islands in 2016, supporting nearly a 1,000 jobs and 
about $100 million in economic output. Hurricanes Irma and 
Maria significantly impacted the areas we manage.
    On St. John the storms displaced a dozen staff members and 
destroyed or significantly damaged 25 facilities. The storms 
substantially eroded shorelines, deposited significant amounts 
of sediment and debris on the Virgin Islands National Park's 
iconic coral reefs. These storms caused 90 vessels to wash 
aground or sink and destroyed strands of Pillar coral, a 
threatened species. In addition, they substantially damaged the 
park's largest concession operations mainly at Cinnamon Bay as 
well as Caneel Bay Resort, the largest single employer on the 
island.
    Immediately following Hurricanes Irma and Maria, the 
National Park Service activated an Incident Command Structure 
at all the national park sites within the Caribbean. The 
Incident Management Team mobilized hotshot fire crews of units 
and sawyers to remove debris from roads, parking lots and 
walkways; completed initial building repairs and restored 
operations where possible to help reinstate park visitation.
    To assist during the immediate aftermath, among other 
things, the National Park Service made the visitor center at 
the Virgin Islands National Park available to St. John 
residents as a temporary shelter; provided fuel to operate 
generators at local health clinics; provided staging areas used 
by the U.S. Navy and BBC Electric; provided radio dispatch 
support to augment remaining emergency radio services; and 
helped ensure emergency services were available on the island.
    In turn, the National Park Service received a tremendous 
support from other Federal agencies as well as the territorial 
government, nonprofit organizations, the business community and 
of course our citizens.
    On St. Croix, Christiansted National Historic Site resumed 
normal operations in November. The water and hiking trails at 
Buck Island Reef National Monument are made open to visitors 
but the pier remains closed. The Salt River Bay visitor contact 
station remains closed at this time.
    St. John, Virgin Islands National Park reopened in early 
December but is still in a major recovery phase. Initial 
repairs restored basic visitor services and reopened the park's 
visitor center, trails, beaches and their adjacent waterways.
    However, much of the park's infrastructure such as roads, 
water systems, signs, concession facilities and fee structures 
were destroyed or badly damaged. Over 500 archaeological sites 
and historic structures still needs stabilization and 35 
derelict vessels remain in sensitive habitats.
    The ongoing closure of Caneel Bay Resort has left an 
indelible imprint on our visitor services and the community at 
large. The same holds true for park concession operations 
throughout St. John. The National Park Service recognizes the 
importance of these businesses to the economy of the Virgin 
Islands and is dedicated to working with them to resume 
operations as soon as possible.
    The Department appreciates the cooperation and 
collaboration with Delegate Plaskett and Governor Mapp. We look 
forward to continuing these efforts throughout the recovery 
phase.
    Recovery of the Virgin Islands National Parks will be 
significantly spurred by funds from the hurricane supplemental 
appropriation recently approved by Congress. The total amount 
of recovery funding that has been allocated to the National 
Park Service for parks on the mainland and in the Caribbean is 
$207 million.
    Mr. Chairman, this concludes my statement. I would be 
pleased to answer any questions that you or Congressman 
Plaskett have.
    [Prepared statement of Mr. Lavasseur follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Mr. Farenthold. Thank you very much.
    And it's Mr. Dynka. Is that how you pronounce your name?
    Mr. Dynka. Dynka.
    Mr. Farenthold. Dynka, okay. Mr. Dynka, you are recognized 
for 5 minutes.

                    STATEMENT OF HENRY DYNKA

    Mr. Dynka. Good morning, Chairman Farenthold, Ranking 
Member Plaskett. My name is Henry Dynka and I'm the manager of 
In-Plant Support for the Northeast area.
    Mr. Farenthold. Could you pull that microphone a little bit 
closer to your mouth?
    Mr. Dynka. All right.
    Mr. Farenthold. Thank you.
    Mr. Dynka. In this role I oversee the ongoing review and 
evaluation of service and quality performance at processing and 
distribution centers. I was personally deployed to the 
Caribbean for approximately seven weeks after the storm. I 
appreciate the opportunity to provide the subcommittee 
information on the preparation, response and recovery efforts 
the Postal Service employed in the Virgin Islands as a result 
of Hurricanes Irma and Maria.
    In the event of a hurricane, the Postal Service's primary 
focus is the safety and well-being of our employees, customers 
and the integrity of the Nation's mail system. We have an 
extensive hurricane preparedness guide to provide the necessary 
direction, coordination and support to ensure we are prepared 
to respond to and recover from a hurricane.
    When we knew that the Virgin Islands were in the direct 
paths of Hurricanes Irma and Maria, employees were asked to 
confirm their contact information. All postal vehicles, 
facilities and unprocessed and undelivered mail was secured to 
the fullest extent possible. We notified potentially impacted 
post offices to be prepared for closure. Emergency equipment 
was assessed for operability and electronic equipment was 
powered down, disconnected and moved to higher ground.
    Devastation in the Virgin Islands from back to back 
Category 5 hurricanes was unlike any experience in recent 
history. We partnered with some several Federal agencies such 
as FEMA, FBI, Customs, HHS, DOD and DEA in our response and 
recovery efforts. We confirmed the safety of our employees as 
quickly as we could and provided them aid such as water and 
meals ready to eat, which had been staged before the storms 
hit.
    Many postal facilities sustained significant damage. 
Despite our best efforts, we lost mail due to weather damage 
and looting that occurred before we were able to secure those 
facilities. Communication was sporadic and we relied heavily on 
social media, traditional news outlets, news outlets that 
communicate post office hours and served as updates.
    Post offices were left without power and internet services 
for extended periods of time, which hampered our efforts to 
restore retail operations and track delivery of mail and 
packages. St. Thomas Airport was closed for 10 days following 
Hurricane Maria and later reopened with limited daily flights 
and operating hours which remain in effect today.
    Also, the barge that carries mail from St. Thomas to St. 
John was down for approximately two weeks. Road closures and 
debris made it difficult for our employees on the Virgin 
Islands to get to work and deliver mail.
    Every postal facility in the Virgin Islands was damaged, 
obstructed or impacted. The Frederiksted Post Office on St. 
Croix in particular was severely damaged. These challenges 
impacted mail delivery.
    Executives at the highest level of the organization were 
engaged with the recovery efforts and the leadership team was 
deployed to the Virgin Islands over a 3-month period. We worked 
diligently to restore retail and delivery services where safe 
despite stringent curfews.
    We reprogrammed equipment to pre-sort mail to help expedite 
delivery when it arrived in the Virgin Islands. We contracted 
with a commercial air carrier to transport oversized packages 
directly into St. Thomas. We used an expedited process to hire 
temporary employees to help with the backlogged mail and we 
installed satellite dishes to improve mail tracking and retail 
services.
    Currently all post offices in the Virgin Islands are 
operational with the exception of Frederiksted. Repairs at 
Frederiksted and Veterans Station are on schedule for 
completion this summer.
    Also last week we sent review teams to every office in the 
Virgin Islands to assess staffing needs. We are grateful for 
the transportation and communication assistance provided by our 
Federal partners. We are proud of our employees who worked 
tirelessly to restore mail service in the Virgin Islands, many 
doing so while working to rebuild their homes and lives.
    While we recognize the challenges remain, we are committed 
to ensuring we fulfill our mandate to provide secure, efficient 
and affordable mail service to all Virgin Islands customers.
    Thank you, Mr. Chairman, for the opportunity to testify. I 
welcome any questions that you and the subcommittee members may 
have.
    [Prepared statement of Mr. Dynka follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Mr. Farenthold. All right, thank you very much. I think 
we'll start with FEMA.
    So, Mr. Vogel, I'll recognize myself for 5 minutes. I want 
to talk a little bit about debris removal.
    We are 80 days away from a new hurricane season here. 
You've still got mounds of debris in various places, some of 
which are in pretty urban areas. My experience with hurricanes 
is you get all the loose stuff from outside and put it inside 
so it doesn't become a projectile. Is there some concern about 
a timeline for getting some of these debris piles removed 
before they become possible missiles in another hurricane?
    Mr. Vogel. Yes, Mr. Chairman, we've been working real hard 
with the Army Corps of Engineers and the territory in order to 
be able to come up with a final resting place for the debris 
that's been collected. Just recently the Army Corps of 
Engineers has asked for contracts in order to be able to have 
debris removed from the islands. We are awaiting information on 
that.
    Mr. Farenthold. So do you know where it's going to go yet.
    Mr. Vogel. That's in the process of being discussed and the 
contractors have that option.
    Mr. Farenthold. All right, let's talk a little bit--a lot 
of the local witnesses talked about the interaction with FEMA. 
At the hotel I was staying at the other night there was a FEMA 
employee. I talked to him for about 10 or 15 minutes.
    It seems like part of the issue is FEMA hires when it needs 
to hire. Obviously you've got the need to staff up when there 
are big events. But somebody might get hired and then when they 
are finished, they are laid off and 6 months or a year later 
there is a need again. You may get some of the same people back 
or you may not. There is a loss of institutional knowledge 
there.
    Have you all thought about some way of preserving that 
institutional knowledge or getting the training to new folks 
that are fast enough and fashioned where they can be of more 
service to the people faster?
    Mr. Vogel. Mr. Chairman, in any operation we want to be 
able to provide the best service that we can for those that we 
support. We are always looking at ways to be able to train 
those people as efficiently as we can and deploy them to the 
areas where they need to work.
    Of course as work is completed, those employees may go to 
other operations, some may elect to leave. But we continue to 
work with everyone in order to have some type of stability in 
our force. I'm happy to say that we have hired 92 local hires 
here for this operation that will be able to remain working 
with FEMA as the recovery transpires.
    Mr. Farenthold. I think Ms. Plaskett and I are going to 
talk to some of the FEMA folks in Washington about a program to 
train locals and come up with something similar to the reserves 
that the Police Department has or the National Guard. That 
really sounds like a good idea that would be a minimum 
investment that would pay big dividends.
    One of the other concerns was the fact that there is no 
local storage of blue roofs or water or food. Can you talk 
about why we don't have those more strategically placed?
    Mr. Vogel. Mr. Chairman, I know that the plan for the 
Caribbean was to provide those necessary commodities from the 
warehouse that was established in San Juan. I don't know if 
there is a facility in the Virgin Islands that would be able to 
properly store those necessary commodities in a climate 
controlled area. But we'll certainly take a look and work with 
the territory and see----
    Mr. Farenthold. Why would you need air conditioned bottles 
of water and plastic tarps.
    Mr. Vogel. Well, the tarps will eventually deteriorate in a 
hot, humid warehouse environment, and water certainly has an 
expiration date on it. We certainly wouldn't want to give any 
expired water to any survivors to use.
    So there is inventory control procedures that would have to 
be followed. We'll work real hard with the territory in order 
to be able to see if we can help identify a system to make that 
happen.
    Mr. Farenthold. You're not saying water expires. There is 
probably contamination from the containers or something. I mean 
water has been around since the beginning of time.
    Mr. Vogel. Yes, that's correct, Mr. Chairman. But I will 
say that the supply system, the logistic system, although 
taxed, did work very well in order to be able to get those 
essential commodities here on the islands for those survivors.
    Mr. Farenthold. And also let's talk for one second--I'll 
come back to it in my second round of questioning. I'll go 
ahead and let Ms. Plaskett go. That's my 5 minutes.
    Do you want to go ten and ten? That might be a little bit 
more efficient.
    Ms. Plaskett. Okay.
    Mr. Farenthold. So we're going to go 10 and 10. So give me 
5 more, please.
    So from a hurricane prone area, myself just recovering from 
Harvey and particularly some of our coastal resort communities 
like Port Aransas and Rockport in Texas, we've seen problems 
with FEMA using up all the hotel rooms, whether it's for relief 
personnel--and that's not all FEMA. That's government-wide as 
well as the linemen and all the other folks that come in. But 
in Texas we've still got several hundred people in hotels. In 
an economy based on tourism, that's a problem.
    There was a witness previously that suggested that FEMA had 
the ability to bring in some sort of modular housing. I've 
visited our military and State Department facilities in places 
like Afghanistan where a standard container unit is basically 
converted into a residence. It seems like something like that 
might be easy to transport and relieve some of the pressure on 
the local economy for housing relief from government personnel. 
Is that something you all have tossed around?
    Mr. Vogel. Mr. Chairman, we are very concerned about the 
amount of space that we take when we come to any area that's 
been devastated by storms. This past storm we had assistance in 
housing our staff and also linemen and other volunteer agencies 
on ships that were docked in Frederiksted and in 
Christiansted--I'm sorry, Frederiksted and at Charlotte Amalie. 
We had those ships with us until February when there was 
sufficient housing that had been identified within the islands 
to be able to help support the economy and move our staff and 
the rest of the survivors into existing facilities that had 
been repaired.
    Mr. Farenthold. Let's talk a little bit more about housing 
challenges for permanent residents. It seems like there is a 
delay obviously of getting the housing back on line. We've 
talked some about insurance. I think that's particularly true 
of owners of apartment complexes and other multi-family 
dwellings that rent things out.
    Do you see any way we can improve that so we've got places 
to put people other than hotels?
    Mr. Vogel. Yes, Mr. Chairman, we have the Multi-Family 
Leasing Repair Program. It's ongoing here in the islands where 
we will pay a landowner to be able to--we will help repair the 
apartments that they have. And then as long as they are willing 
to accept one of our survivors, one of the survivors that we 
identify that needs housing, we will repair that and then we 
will pay that property owner for 18 months while we're working 
on a permanent housing solution for that survivor.
    Mr. Farenthold. All right, thank you very much.
    Mr. Raheem, you said you are talking to the local officials 
on a daily basis in coordinating?
    Mr. Raheem. Yes, sir.
    Mr. Farenthold. Is that by phone, via email? How do you 
talk to those guys.
    Mr. Raheem. It depends on where I am at the moment. The 
times that I'm here, predominantly on St. Croix because that's 
where the joint field office is, Commissioner Davis, Deputy 
Commissioner Reuben, folks from Housing, Human Services, 
VITEMA, et cetera, we are in face to face meetings. When I'm 
back in New York and doing other things, it's obviously by 
phone, email, videoconference, whatever is required, sir.
    Mr. Farenthold. Well, this committee has requested from 
your agency copies of emails related to this disaster relief 
and we've only got a handful. It seems like if you all have the 
level of coordination that you are talking about, there ought 
to be more emails. I'd like to request that you get with your 
IT folks and the appropriate folks and see about getting our 
document production request met.
    Mr. Raheem. Certainly, sir.
    Mr. Farenthold. We also heard from our local panel 
beforehand that there was an issue tracking victims who are 
medivacked out to Puerto Rico or wherever. What are you all 
doing to improve the tracking of people so family members know 
where their relatives are, who's safe, who's not and that sort 
of thing.
    Mr. Raheem. Mr. Chairman, so currently all the folks are in 
Atlanta, Georgia. We've consolidated all the folks that have 
been evacuated from the various locations to Atlanta, Georgia, 
and all those records are made available on a daily basis. In 
fact, the Virgin Islands very kindly provided three nurses. 
There is currently two remaining from St. Croix that are 
actually acting as case managers to all those folks.
    So Virgin Islanders are directly speaking to other Virgin 
Islanders, discussing the needs and requirements. All those 
lists are available to the Virgin Islands Department of Health 
and are made available on an actual daily basis.
    Anytime we return anyone, someone has met the needs of care 
and they return--actually three are being done this morning--
those records are being done here. Obviously that's after the 
fact.
    For this current season if that need arises again, using 
established IT systems in conjunction and coordination with the 
VIDOH is a critical planning factor. Something called JPATS, 
Joint Patient Assessment & Tracking System is something we are 
working with the VA to bring here for this hurricane season.
    Clearly in the last one those evacuations occurred on a 
very urgent basis. Sometimes in those emergencies and as you 
are well aware from Texas and other places, those things don't 
always get all the details collected at the moment. The detail 
was collected relatively quickly after the fact. But certainly 
there is always opportunities to improve.
    Mr. Farenthold. Great. I've still got some more for the 
right-hand side of the panel as I look at you guys. But we'll 
let Ms. Plaskett do ten minutes, and, hopefully, we'll have 
time to do a second round.
    Ms. Plaskett. Sounds great. Thank you.
    I have some very specific questions that I wanted to ask 
very quickly. I'm hoping you can just quickly give me the 
answers so that we can cover a lot of material.
    Mr. Vogel, one of the questions that has arisen and there 
seems to be some confusion about in terms of the Department of 
Education in the modular units that are going to be used. 
Recognizing that our children are back in school, we need to 
put on the record that the children are only in the school, in 
the public schools for four hours a day because they are 
sharing space with other schools because we don't have all the 
facilities in place.
    When will the modular units that's been discussed be on 
island for the next coming school year?
    Mr. Vogel. Delegate Plaskett, I can't tell you the exact 
date. I can tell you that we have been working very, very hard 
with the Department of Education and with the territory in 
order to be able to identify the number and type of----
    Ms. Plaskett. So it has not been done?
    Mr. Vogel. Yes, that has been done.
    Ms. Plaskett. Do you have the type?
    Mr. Vogel. That has been done.
    Ms. Plaskett. Is there a person who has created them and do 
we have a date of shipment?
    Mr. Vogel. The contract is ready to be let. I don't know 
the date of shipment. We will get back to you.
    Ms. Plaskett. When you say the contract has been ready to 
be let, does that mean it has been signed and it's in place?
    Mr. Vogel. Ma'am, I would have to check with the Department 
of Education.
    Ms. Plaskett. So it's the Department of Education that's 
been responsible for that?
    Mr. Vogel. Yes. And we have been working with the 
Department of Education to assist them and identify what it was 
that they need.
    Ms. Plaskett. So your position is more advisory in terms of 
what should be needed and what specs you all would be willing 
to support?
    Mr. Vogel. We'll support whatever specs they ask for. And 
what we do is work with them in order to be able to develop the 
project worksheet that would reimburse the territory for that 
process.
    Ms. Plaskett. Okay, got it.
    And now in terms of the hospitals as well, we have heard 
about evacuation of individuals. We know that dialysis units as 
well as people are really pretty much just being triaged at 
this point. If there is long-term care that's needed, they have 
to be removed.
    We've heard the Governor talk about creating units on the 
ground as an assessment is done. Are those units on their way 
as well?
    Mr. Vogel. Yes, they are. And the units were delayed 
somewhat last week as a result of the storms but the units are 
on their way.
    Ms. Plaskett. And then in terms of the assessment, in the 
previous panel there was a discussion about the assessment. 
Colonel Clark, I don't know if that's in your department with 
the Army Corps of Engineers, has an assessment been made of the 
hospitals to determine whether it's 50 percent or more 
destruction or when is that going to happen?
    Colonel Clark. Ma'am, that assessment is ongoing.
    Mr. Farenthold. Could you turn on your microphone, please, 
sir.
    Colonel Clark. Yes, sir.
    The assessments are ongoing. I believe the actual 
assessments are complete. Right now they are working with the 
Federal agencies and all the partners in completing that 
report. I think the draft report will be done in about two 
weeks with the final report done by the 18th of April, ma'am.
    Ms. Plaskett. And then that report goes to our Governor and 
then goes to the Federal partners in FEMA as well to make a 
determination of what reimbursement will take place?
    Colonel Clark. Ma'am, we'll get that report to FEMA, yes.
    Ms. Plaskett. So you'll send the report to FEMA and then 
FEMA sends the report to the Governor. Is that how that works?
    Mr. Vogel. Yes, ma'am, that's correct.
    Ms. Plaskett. Okay, thank you.
    Now turning the question to the actual hurricanes and the 
recovery and the process, one of the things ongoing on the 
ground is I'd like to focus a little attention on St. John, in 
particular on the Coral Bay area which was probably the most 
isolated area in the Virgin Islands after both of those 
hurricanes struck.
    I was struck by testimony from some of the witnesses who 
talked about the psychological feeling of having waiting days 
and seeing the Navy and others circling waiting for them to 
come on the ground after Irma, them being there and then them 
leaving again to move themselves out of the way of the storm 
while Maria came and then waiting again.
    Could you explain that process--I think that would be you, 
Colonel Heintzelman--how that works? And what is the protocol 
in the Virgin Islands for getting people on the ground, the 
military on the ground to support?
    Colonel Heintzelman. Sure. Delegate Plaskett, thank you for 
your question.
    So I think I'll start with the national response framework. 
We respond to the mission assignment of the lead agency, in 
this instance FEMA asked us to do, and we do those in 
collaboration also with the territory. So whatever they ask us 
do, that's where we put our capabilities.
    Ms. Plaskett. And did you receive a request before the 
storms to be prepared to come?
    Colonel Heintzelman. Yes, ma'am. In fact I think me and Mr. 
Vogel first spoke on Friday or Saturday, the 1st or 2nd of 
September, we did our first mission assignment. It really 
allowed us to deploy the fleet, the maritime platforms. It take 
about 4 or 5 days to sail here, and that allowed us to have 
them offshore.
    So when Irma hit the very next morning, the 7th of 
September, myself, Mr. Vogel, the Governor, the Adjutant 
General were over here on St. Thomas within hours after the 
storm passing.
    Ms. Plaskett. And how long did it take for all of the 
troops to actually be able to come on the ground?
    Colonel Heintzelman. You've had a lot of talk about where 
you house responders in hotels. What we did is we berthed all 
our marines and sailors on the ships. They came in every day. 
They performed their mission assignments. They went back to the 
ship at night where they slept and ate. Some stayed overnight. 
They would stay in the National Guard Armory or points of 
distribution. But what we didn't want to do was to be a burden 
to anybody else. So they came and went every single day.
    The morning after the storm, on the 7th of September, we 
had forces ashore. We immediately started doing medical 
evacuation. We did search and rescue. We immediately started 
opening the roads.
    Ms. Plaskett. So in the case of Northern Florida I know 
that the Army deployed troops to be in shelters before the 
storms took place. Had there been a discussion about having 
people in place in shelters before? If it was done, how many? 
If not, why was it not done?
    Colonel Heintzelman. We have about 26 people of soldiers, 
airmen and marines that come down before the storm. We locate 
with the FEMA Incident Management Assistance Team at the VITEMA 
office and I coordinate the response. Other than that, it's 
just me. Out of the ships, which were just offshore, we had I 
think 3300 sailors and marines ready to go.
    Ms. Plaskett. And do you think that that was the proper 
mechanism for doing it rather than having individuals here 
berthed and staying in shelters on the ground? Was the ship the 
proper means with which to give the recovery and why?
    Colonel Heintzelman. Ma'am, I think it's ideal because you 
can keep them out of the way. They can stay out of the storms 
and they don't become victims. And then immediately following 
the storm with their helicopters--I think we had 30 some 
helicopters, landing craft, we are able to quickly move them to 
ashore. They are able to do their mission but at the same time 
they don't get in anybody's way. They don't take up the hotel 
rooms.
    There is not much room for say responder based camps here 
in the islands. So they can go back and forth to the ship. I 
think it's kind of an ideal way to do it.
    Ms. Plaskett. And then one last question before I move on 
to someone else. In terms of communication, we know the 
communication systems were down, towers were down. Did you 
receive a request for I think they are called COWS or 
satellites or things? And how was that then deployed so that 
communication can occur?
    Colonel Heintzelman. Communication was definitely a 
challenge after the storms. We lost most of the cell phone 
towers.
    So I provided a lot of the communications. I supported both 
FEMA and VITEMA. Everything we had is satellite based. We did 
that for several days until they were able to bring in more 
robust systems.
    One of the challenges, though, with satellite based 
communications is you have to put up a dish antenna. If you 
remember after Maria the winds the next day, I think it was the 
21st were still like 70-knot winds, you really can't put a dish 
antenna up in that.
    So we were without communications for about 24 hours. We 
knew that would be the case. We went into that with what we 
call a no-communications plan.
    [Power Interruption in Hearing Room.]
    Colonel Heintzelman. Would you like me to continue?
    Ms. Plaskett. I think we should wait for just a minute.
    Mr. Farenthold. We are certainly not in the dark on this 
issue.
    So until we get our lights back on or if we determine we're 
not going to be able to, we'll take a recess subject to the 
recall of the Chair.
    [Recess.]
    Mr. Farenthold. The subcommittee will come back to order. 
It seems we've got enough power for our reporter to record what 
we're saying and keep the official record. We've got the 
windows open. We've got some daylight and we feel like we're 
working on a generator now.
    Are you still good without the microphones to record us, 
ma'am?
    The Reporter. Yes.
    Mr. Farenthold. All right, we'll just go on and speak up 
the best we can.
    Ms. Plaskett. Sure. I guess my question would be a follow-
up.
    Colonel Heintzelman, when you talked about an immediate 
time after the hurricane, after Irma you and the Governor or 
others were able to get onto St. Thomas very quickly, when were 
you able to get to St. John?
    Colonel Heintzelman. The same day, ma'am, within an hour.
    Ms. Plaskett. And when were you able to bring your deployed 
personnel to actually be there and assist with the recovery on 
St. John?
    Colonel Heintzelman. I know, ma'am, on St. Thomas it was 
the same day. So it would have been that Thursday, the 7th of 
September. I believe there was another day, until Friday the 
8th until we got over to St. John
    Ms. Plaskett. Because in the testimony I have from Miss 
Enwright, who is with St. John with Love City Strong and 
others, she discusses in her testimony that it took at least 
three days before they were able to see the Navy and others 
come after Irma. Would that be correct?
    Colonel Heintzelman. Ma'am, I know we had some people on 
Cruz Bay that Friday, the 8th of September.
    Ms. Plaskett. Okay, on Cruz Bay. And it took a little 
longer to get to Coral Bay, correct?
    Colonel Heintzelman. We did, ma'am, we did do some search 
and rescue over there. We took some urban search and rescue 
teams. We did some patient evacuations. I'm not sure the exact 
date, though, that people actually went over to Coral Bay and 
spent any time.
    Ms. Plaskett. Okay. Colonel Clark, in talking about the 
Army Corps, Senator Roach talked about--and I think what he was 
describing that he had applied for was the STEP, the Rapid 
Repair Program. Could you tell me if the Rapid Repair Program 
has that been deployed as yet in the Virgin Islands?
    Colonel Clark. Ma'am, what I can tell you is we deployed 
working through FEMA the Blue Roof Program and the Blue Tarp 
Program. We did not commission or assign for a repaid repair.
    Ms. Plaskett. Mr. Vogel, would that be through you, FEMA, 
that the Rapid Repair Program is now being initiated rather 
than--and that's supposed to be rather than having creating 
temporary housing, you repaired the homes that are in place 
already, correct?
    Mr. Vogel. Delegate Plaskett, that is correct. That program 
is administered and controlled by the territory. We reimburse 
the territory for those expenses that are associated with the 
homes that they repair and what FEMA calls the Sheltering and 
Temporary Essential Power Program
    Ms. Plaskett. STEP, correct?
    Mr. Vogel. That is correct, that's STEP.
    Ms. Plaskett. But now it's administered by the Virgin 
Islands Government. But of course the Virgin Islands Government 
is not going to initiate this until they are assured that the 
Federal Government has approved the reimbursement for it, 
right?
    Mr. Vogel. Ma'am, the territory----
    Ms. Plaskett. Why would you expend the money for the 
program if you didn't think that the Federal Government was 
going to reimburse you for it, which is how the STEP program 
works? When did the Federal Government agree to reimburse the 
Virgin Islands Government for it?
    Mr. Vogel. Delegate Plaskett, the territory elected to do 
this program through a contractor. We had been working with the 
territory in order to be able to develop a project worksheet 
and authorize them and obligate monies to them so that they 
were able to initiate that contract.
    Ms. Plaskett. Right. But the Virgin Islands Government, 
Governor Mapp, did not go into the contract negotiations until 
he knew that Brock Long had agreed to begin the reimbursement 
at a reasonable amount for each one of those homes; is that 
correct? And when was that negotiated with the Director of 
FEMA?
    Mr. Vogel. Ma'am, I'm sorry, I don't have a date when that 
was negotiated. I was not aware that that negotiation took 
place. I do know that we had worked with the territory.
    We have also worked with the territory's subject matter 
expert, which is Witt O'Brien's. We have come up with a 
reasonable number in order to be able to have that project 
worksheet obligated.
    Ms. Plaskett. And what is that reasonable number?
    Mr. Vogel. The reasonable number that was initially sent 
forward to OLA was some $634 million.
    Ms. Plaskett. And per home, what would that break down to?
    Mr. Vogel. The STEP authorization per home is $25,000.
    Ms. Plaskett. And, Colonel Clark, what is the application 
of how much it cost per home for the Blue Roof Program?
    Colonel Clark. Ma'am, I don't know the exact number but it 
was up to $25,000.00 repair for the Blue Roof Program.
    Ms. Plaskett. So if you are putting temporary housing and 
you are putting a temporary blue roof on a home at 25,000, then 
you are saying to permanently fix the roof at 25,000 does that 
seem like a reasonable amount for a roof? Because I know that 
part of the negotiation that the Governor had was that he 
wanted to increase the amount per roof because he did not 
believe that 25,000 was going to fix people's roof.
    Mr. Vogel. Delegate Plaskett, we initially had received 
from FEMA headquarters a ceiling of $20,000.00 per home. We 
went back and asked for that to be adjusted and they adjusted 
it to $25,000.00.
    Ms. Plaskett. So you are now saying that there was some 
negotiation back and forth that went on?
    Mr. Vogel. That was not in accordance with the negotiation 
of the contract, ma'am. That was in negotiation with FEMA 
headquarters that had established a $20,000.00 ceiling for the 
amount of money that we were authorized to spend in the 
Sheltering and Temporary Essential Power Program per home.
    Yes, we asked that to be increased. We asked for that to be 
increased. The Governor asked me to ask for that to be 
increased. We sent that forward and they favorably approved 
$25,000 as the maximum per home.
    Ms. Plaskett. I know my time has run out.
    Mr. Farenthold. We've got time to do one more round of 5 
minutes each. The committee staff and I need to get to the 
airport. We're trying to save the taxpayers some money and not 
spend another night in the Virgin Islands.
    Ms. Plaskett. Although you'd like to.
    Mr. Farenthold. That's exactly right.
    Mr. Lavasseur, at the Park Service you talked a little bit 
about the damage sustained by your concessionaires. Obviously 
the largest is Caneel Bay. I was able to drive through and 
walk-through a little bit of that. It's pretty close to a total 
loss.
    How much longer do they have on their concession contract?
    Mr. Lavasseur. They are currently not under a concession 
contract. They are under a retained use estate. That's the 
legal mechanism on how they are sitting on the island right 
now.
    Mr. Farenthold. How much longer do they have under their 
agreement.
    Mr. Lavasseur. Seven more years, sir.
    Mr. Farenthold. So as a businessperson and I'm looking at 
replacing a resort that obviously is hundreds of millions of 
dollars' worth of improvements, there is no way I'm going to be 
able to recoup that investment with only a guarantee that there 
is seven years left on my contract.
    Are you all negotiating with them? Is there a legal 
procedure in place for them to either extend it or forfeit it 
for somebody else to come in?
    To me it seems like it's going to take a minimum of a 50-
year agreement. I think the original agreement with the 
Rockefellers was, what, 60 years?
    Mr. Lavasseur. I believe it was, yes.
    Mr. Farenthold. So are you all working on anything? I mean 
that's got to be critical to the hundreds of people who work 
there.
    Mr. Lavasseur. So the current negotiations are happening at 
the highest levels of the Department of Interior and the 
National Park Service. Because they understand the significance 
and the importance of this, and the business issues of it, they 
have taken that from the park to ensure that it was their top 
priority. It's being handled from the Washington office.
    Mr. Farenthold. All right, thank you. And I assume you've 
got the other issue with the other hotel there. It's very 
similar. I did not get to look at that.
    Mr. Lavasseur. Yes, Cinnamon Bay right now operates out of 
Cinnamon Bay and Trunk Bay. We are working with the 
concessionaire who has not received his insurance yet. So the 
concessionaire there is still working through insurance to try 
and get the facility up and running.
    Now we at the National Park Service have taken upon 
ourselves to cleanup Trunk Bay knowing that that's an important 
function of the cruise ships to make sure that Trunk Bay is 
operational. It's currently operational right now and can be 
occupied by the concessionaire.
    As you mentioned earlier with the business solution, the 
concessionaire has struggles with putting employees there with 
the amount of visitor base that we are currently having. It's 
one of those things, the chicken before the egg. If you don't 
put business there, visitors won't come. If visitors don't 
come, the business doesn't survive.
    So there is that happening throughout all the territories 
and the commonwealth.
    Mr. Farenthold. All right, Colonel Clark, some of the local 
folks said that there was an issue with how you all installed 
the blue roofs here. As opposed to in the U.S., most of us have 
composition shingles and wood decking on the roof. That's not 
the primary form of construction here.
    Can you talk about some of the challenges you are faced 
with the blue roof and anything you all have learned and would 
do different next time?
    Colonel Clark. Yes, sir.
    First of all, I think the blue roof is a very important 
program that allows temporary roofing or shelter in place. We 
were able to put on 3,658 roofs across the territory. As you 
mentioned, it's really geared for shingle roofs like you would 
see in Florida and other places and not so much the metal 
roofing we have here.
    So one of the things we're trying to strive to be better is 
next week we have what they call the remedial action plan 
workshop in which the enterprise, the Corps of Engineers 
enterprise will look at procedures, techniques that would be 
more useful for the Virgin Islands.
    So I would say another thing is the roof systems that are 
here with the damage it was more than 50 percent, more than 
what you would have seen in Florida. Most of the baseboards 
were torn off. So we had to put down the baseboards, put on the 
blue roofs. So we'll look at other techniques that might be 
able to do it faster.
    Mr. Farenthold. Finally--and I'll open this up because I 
don't know particularly who to ask this to and I saw this in 
Texas. One of the really important things you needed towards 
your return to normalcy aside from the debris removal and 
getting the grocery stores open is getting your communications 
restored. We saw some news stories about new technologies like 
either a drone or balloon based cell towers or even potentially 
using some form of specially equipped aircraft that would form 
an orbit around an area to provide cell service until the 
towers are in place.
    Has anybody worked with that or have any thoughts on what, 
if any, the government involvement should be with that or 
should that be something left with the private sector? I guess 
Mr. Vogel----
    Mr. Vogel. Mr. Chairman, I can tell you----
    Mr. Farenthold. You are in the hot seat today.
    Mr. Vogel. I can tell you a system that worked very well 
here and it was the first time that FEMA had used that. We used 
part of the 82nd Airborne's Civil Authority Information Systems 
team. They had a great capability to go out and, number one, 
repair some of the radio stations.
    Number two, they can do print media.
    Number three, they have loudspeakers on their vehicles.
    And, number four, it's a great bunch of soldiers who go out 
and meet people face to face in the remote areas. They have 
special vehicles that they can use, altering vehicles and it 
worked very well.
    I am not aware of some of the other communications 
infrastructure that people are looking at. But I agree with you 
that anything that we might be able to do to improve the 
resiliency of communications and come up with other programs to 
be able to help that immediate need right after a devastating 
event like both of these hurricanes was is absolutely 
essential.
    I know that just this past week the Chairman of the Federal 
Communications Commission was here. I know that they are 
looking real hard at what is it that they can do in order to be 
able to support it.
    Mr. Farenthold. Again as a fellow survivor of a rather 
severe hurricane last year, my heart goes out to the folks in 
this area, and my thanks go to our Federal responders.
    I'll now recognize Ms. Plaskett for 5 minutes and again 
with apologizes that we don't have time to spend a full day on 
this. We just simply can't.
    Ms. Plaskett. Thank you. Thanks so much.
    Colonel Clark, when you talked about the installation of 
the blue roofs, you said there were 3,658 that were put up. How 
many applications were submitted for the Blue Roof Program?
    Colonel Clark. Ma'am, we received about 6,000 ROEs. By the 
time we looked to take out the duplicates, triplicates, it was 
closer to about 5,000. Of that 5,000 there is about 500 that 
just did not meet the requirements, that the damage was so much 
that they didn't meet the requirements. The rest were people 
who either found other means to repair the roof, either 
insurance or repaired it themselves or canceled the program.
    Ms. Plaskett. And, Mr. Vogel, do you know approximately how 
many roofs or how many homes were damaged in the Virgin 
Islands? Do we have an estimate of that?
    Mr. Vogel. We have an estimate of some 12,500 homes.
    Ms. Plaskett. So we know that a lot of people then probably 
just did not apply. Is that what we think happened in terms of 
people not applying for the Blue Roof Program if there were 
12,000?
    Mr. Vogel. Delegate Plaskett, many of those homes may not 
have had sufficient damage to apply for a blue roof. Many of 
those homes may have only received minor damage.
    Ms. Plaskett. So I guess the reason I'm asking this 
question is I'm concerned about those homes that still appear 
to be extremely damaged. And I know, Colonel, that you can only 
do for those that have applied.
    The staff yesterday were on the Island of St. John and took 
some pictures of some of the homes that people are living in. 
We don't have the monitors up anymore but I know that we've 
made pictures of this.
    What can we do as the Federal Government and the local 
government working together to ensure that people who are 
living in homes that look like this don't have to go into the 
2018 Hurricane Season like this?
    If you could see on one of these, people are actually 
living in one of the little sheltered areas there. How do we 
deal with this for the next hurricane season that's right upon 
us? And if it's not a hurricane, at least the rain that's 
incessant during those months.
    Does anyone have suggestions on what do we do for these 
cases for people who are living in homes that look like this? 
How do we as a community or the Federal Government deal with 
that?
    Mr. Vogel. Well, Delegate Plaskett, we continue to work 
with the Virgin Islands Housing Authority and the Department of 
Human Services to identify any available structure to be able 
to support those survivors who are living in conditions like 
this and encourage them to be able to reach out and work with 
us to find a safe, sanitary and secure place to live while 
their permanent homes are either being replaced or repaired.
    We are in the process of doing a Permanent Housing 
Construction Direct Repair Program, and that program will help 
those homes that have up to $75,000.00 worth of damage done to 
them. And, hopefully, that will take care of the number of the 
homes that we see are damaged and the survivors are still in 
there.
    I have also requested that permanent housing construction--
a new construction program be authorized for the Virgin 
Islands. I'm awaiting headquarters, FEMA's decision on that.
    Ms. Plaskett. Thank you. And you all have done--you know 
I've asked some questions about what the deficiencies are. 
Please don't think that that means that I don't recognize the 
tremendous work and the amount of hours that you all put in. I 
know that cannot be understated as well. So many of you have 
really stepped up to the plate and gone outside of your mission 
statement.
    So I guess my parting question would be if you could really 
talk about the lessons that were learned very succinctly. What 
maybe you did really well and what could be changed or improved 
or things that we as members of this committee that's our 
purpose is to find out what Federal legislation is within your 
purview to add to the support of your agencies in your missions 
as we move into the next hurricane season and to other places?
    Mr. Vogel. Delegate Plaskett, I'm taking all the time here. 
I'm sorry.
    First of all, I think that the coordination that took place 
just prior to the storm, and the fact that we had been down 
here in May on a major military exercise and I was able to 
bring some of my staff with me, they got a chance to see where 
the critical infrastructure was, what the islands looked like. 
They hadn't been here before. That was absolutely essential for 
them to be able to see that. So once they got here and saw what 
had happened, they were then able to operate.
    I think the relationship that I have with Colonel 
Heintzelman is absolutely critical in these types of 
operations. We talk all the time. He's in FEMA Region II as am 
I. Our discussions prior to the time as that black cloud was 
coming across the Eastern Atlantic looking at what it was that 
we ought to be able to say, okay, somebody needs to be able to 
make a decision here. It's going to cost a lot of money to 
deploy a joint task force. But if we don't have them with the 
forecast of the effects that this storm is going to have, we 
will be unable to provide the commodities immediately after the 
storm.
    Colonel Heintzelman was able to make sure that those--all 
of those assets and resources were available to us. The joint 
task force was here. So that part of the process worked really 
well along with the initial coordination of the 55 Federal 
agencies that I asked for to come and help in this effort. 
Never in my 12 short years of working in FEMA have I seen such 
good cooperation.
    We had great communications with the National Response and 
Coordination Center at FEMA headquarters. We were on with them 
early in the morning and very late at night. We had visibility 
on what was going to arrive the next day. As I identified 
additional requirements from all of the agencies that they 
identified to me, we would discuss that. They had arrangements 
made so that we would be able to have that commodity or that 
service shipped to us.
    The thing that I would recommend and we were able to very 
quickly reorganize, but we need air operation assets on each 
one of the islands here. Initially the plan was to do that from 
Puerto Rico. We quickly had to change the way we did that 
business so that we had visibility on what type of essential 
equipment was here to be able to service the aircraft when they 
arrived, what kind of people we needed here in order to be able 
to make sure that those commodities and those services got out 
to the territory.
    So for that part of the operation I think went really well. 
I know that there are processes in place in the coming years to 
make sure that those air operation sections are sufficiently 
staff for each one of the islands.
    Believe me, our heart goes out to all the people that have 
been affected by this thing. We certainly understand how 
critical it is in order to be able to get things back in place.
    I commend the Virgin Islanders with their resiliency. I've 
just got to tell you that we will be here as long as it takes 
in order to be able to get this place put back together again 
and be more resilient in the future. And I'm committed to do 
whatever I can in order to be able to help.
    Ms. Plaskett. Colonels, did you have anything additional to 
add?
    Colonel Heintzelman. Ma'am, I would second what Mr. Vogel 
said. The most important lesson learned for NORTHCOM is pre-
positioning those forces before the storm like you mentioned 
with the amphibious readiness group so that the capabilities 
are immediately available post-storm.
    That's a big decision me and Mr. Vogel talked directly in 
person with Mr. Long back on the 5th of December. It's about a 
$10 million decision but we intend to do that every year. I 
mean you can't anticipate everything in a big disaster like 
this. What we did anticipate we've taken note of those 
capabilities in order to prepare for next season.
    Ms. Plaskett. And, Colonel Clark, because now after the 
disaster and the initial recovery, so much of this falls on the 
Army Corps in terms of the rebuilding.
    Colonel Clark. Ma'am, we all know in the response and 
recovery effort it's never fast enough for those that are in 
need. That's why the Corps and all the Federal partners, 
territory partners take doing after action reviews and lessons 
learned very seriously. The Corps enterprise itself in October 
and November sent outside personnel down to the Virgin Islands 
that did interviews with all Federal partners, local partners 
and other folks to collect those lessons learned.
    As I mentioned before, we are always looking for ways to 
get better. One example is next week in New Orleans where we 
are getting with some of the Federal partners to discuss in the 
remedial action plan workshop to review some of those lessons 
learned; to review and prioritize the issues that relate to the 
Corps' response to this disaster; consider courses of action 
for addressing those issues and developing action plans to 
innovate improvement for correcting operational deficiencies 
like we encountered for the blue roof; look at ways of how the 
blue roof mission could be unique to the Virgin Islands and how 
we can improve.
    Ms. Plaskett. Thank you.
    And thank you, Mr. Chairman, for this.
    One of the things I would hope that the Committee would 
consider in listening to some of the testimony and the changes 
and the one you have discussed about having a cadre of 
training, I wholeheartedly agree with you and support that.
    But also I think there needs to be a serious look from our 
level as to whether or not we need to continue having regional 
offices that are in Puerto Rico for the Virgin Islands. Because 
when issues like this come up, there is a fight for limited 
resources between ourselves and our brothers and sisters in 
Puerto Rico.
    They are also compromised. I think that the Virgin Islands 
should not be reporting to Puerto Rico but potentially Florida 
or other places who have the resources and the isolation in 
times of need like this.
    Mr. Farenthold. Thank you very much.
    I'd like to thank the witnesses again for appearing before 
us today.
    We'll hold the record open for 2 weeks for any member who 
is not here to submit written opening statements or a question 
for the record. If you folks would be willing to answer any of 
the written questions should they appear, we would greatly 
appreciate that.
    If there is no further business, without objection this 
subcommittee stands adjourned.
    [Whereupon, the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 <all>
</pre></body></html>
